No. 21-_______________
In the
United States Supreme Court
Anthony Sistrunk,

Petitioner,

v.
United States of America,
Respondent,
APPENDIX

Daniel M. Myshin, Esq.
Counsel of Record
P.O. Box 33
Hummelstown, PA 17036
717-541-5451
dan_myshin@myshinlaw.com

INDEX OF APPENDICES:
Appendix A: Opinion of the United States Court of Appeals
For the Third Circuit, (September 10, 2020)…………………………

1a

Appendix B: Order of the United States Court of Appeals
For the Third Circuit, Sur Petition for Rehearing with
Suggestion for Rehearing En Banc, (November 10, 2020)…………

52a

Appendix C: Judgment of the United States District Court
For the Middle District of Pennsylvania, (June 28, 2017)…………

55a

Appendix D: Order of the District Court for the Middle District
Of Pennsylvania, (September 18, 2015)……..………………………..

65a

Appendix E: Order of the United States Court of Appeals
For the Third Circuit consolidating cases #17-2111 (Williams),
#17-3191 (Cruz), #17-3373 (Hernandez), #17-3586 (Villega),
#17-3711 (Rice), #17-3777 (Kelly), #18-1012 (Schueg), #18-1324
(Atkinson), and #18-2468 (Petitioner) for disposition only,
(July 3, 2018)………………………………………………………………

67a

Appendix F: Order of the United States Court of Appeals
For the Third Circuit, Sur petition for rehearing with
suggestion for rehearing en banc. (United States v.
Eugene Rice, #17-3711) (November 24, 2020)………………………...

70a

Appendix G: U.S. Const. Amend. VI………………………………………….

73a

No. 21-_______________
In the
United States Supreme Court
Anthony Sistrunk,

Petitioner,

v.
United States of America,
Respondent,
APPENDIX A
Opinion of the United States Court of Appeals
For the Third Circuit (September 10, 2020)
Daniel M. Myshin, Esq.
Counsel of Record
P.O. Box 33
Hummelstown, PA 17036
717-541-5451
dan_myshin@myshinlaw.com

1a

No. 18-1324
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

United States v. Williams
974 F.3d 320 (3d Cir. 2020)
Decided Sep 10, 2020

Nos. 17-2111 17-3191 17-3373 17-3586 17-3711
17-3777 18-1012 18-1324 18-2468 19-1037

Over the course of the ensuing year, several of the
defendants pleaded guilty. Twelve, however,
proceeded to a joint trial, held over eight weeks
from September to November 2015. The jury
heard from well over one hundred witnesses,
including some of the original twenty-one who
chose to cooperate with the Government in the
hope of a reduced sentence. The picture that
emerged was of lives characterized by cycles of
crime and incarceration, stretching across more
than a decade and punctuated by moments of
significant and sometimes reckless violence. The
witnesses depicted widespread drug dealing in
crack cocaine and heroin. They told of territorial
rivalries, market competition, and personal feuds.
They recounted episodes of threat and retaliation,
attack and retribution. But they also described
friendship, loyalty, and loss; pride and fear;
ambition, and great ability left unrealized. In the
end, all twelve defendants were convicted on one
or more of the charges against them, and in the
years thereafter were sentenced to, among other
things, terms of imprisonment ranging from sixty
months to life.

09-10-2020
UNITED STATES of America v. Jabree
WILLIAMS, a/k/a "Minute", Rolando Cruz, Jr.,
Marc Hernandez, a/k/a Marky D., Roscoe Villega,
Eugene Rice, also known as "B Mor", Douglas
Kelly, Angel Schueg, a/k/a "Pocko", Maurice
Atkinson, Anthony Sistrunk a/k/a "Kanye", Tyree
Eatmon, a/k/a Ree.
FISHER, Circuit Judge.
OPINION OF THE COURT
In mid-September 2014, a federal grand jury
in the U.S. District Court for the Middle District
of Pennsylvania returned an indictment of twentyone men from the South Side neighborhood of
York, Pennsylvania. All twenty-one were charged
on counts of racketeering conspiracy, drugtrafficking conspiracy, and drug trafficking. Four
were also variously charged with federal firearms
offenses related to the alleged trafficking.
Although so called because of its geographic
location in the city, South Side, the indictment
alleged, had constituted since 2002 the identity of
a criminal enterprise associated through its upper
echelons with the Bloods, a national street gang.
At the heart of the enterprise, it was said, lay an
extensive drug-trafficking operation, conducted
across a defined territory and nurtured in part
through sporadic episodes of occasionally deadly
violence involving rival gangs, gang affiliates,
and, collaterally, members of the general public.

335 *335

336

Ten of the twelve (the Defendants) now appeal
their convictions and sentences on a variety of
grounds, advanced both severally and collectively.
These issues, which span more or less all the
relevant phases of a criminal prosecution, can be
divided *336 into five categories. First, most of the
Defendants contend that because the District
Court's closure of the courtroom to the public
during jury selection violated their Sixth
Amendment right to a public trial, their
convictions should be reversed and a new trial

1

2a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

ordered under Federal Rule of Criminal Procedure
52(b). Second, two Defendants claim that the
District Court's in camera disposition of a
challenge under Batson v. Kentucky , 476 U.S. 79,
106 S.Ct. 1712, 90 L.Ed.2d 69 (1986), both
violated their constitutional right to personal
presence at all critical phases of their criminal trial
and was sufficiently prejudicial to warrant reversal
of their convictions. Third, several Defendants
bring evidentiary challenges. Two appeal the
District Court's denial of their motions to suppress
evidence collected from their residences pursuant
to search warrants. Still more Defendants assert
various errors regarding the admission and use of
evidence at trial. Fourth, nearly all the Defendants
contend that the evidence was insufficient to
support one or more of the verdicts against them.
These challenges ask us to clarify, among other
things, the effect of our recent decision in United
States v. Rowe , 919 F.3d 752 (3d Cir. 2019) —and
thereby of the Supreme Court's decision in Alleyne
v. United States , 570 U.S. 99, 133 S.Ct. 2151, 186
L.Ed.2d 314 (2013) —upon our case law
regarding the elements of a drug-trafficking
conspiracy under 21 U.S.C. § 846. Finally, all the
Defendants appeal their sentences, principally
alleging procedural defects in the District Court's
judgments.
For the reasons that follow, we will affirm the
Defendants’ judgments of conviction. We will also
affirm the judgments of sentence of Jabree
Williams and Eugene Rice. But we will vacate
either in whole or in part the other Defendants’
judgments of sentence, and remand the cases of
Marc Hernandez and Angel Schueg for
resentencing proceedings consistent with this
opinion.

I. BACKGROUND
A. Investigation and Indictment
These cases began with an act of cooperative
federalism.1 At the initiation of, and together with,
local law enforcement, the federal Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF)

conducted a multiyear investigation into drug
trafficking and violence in the city of York,
Pennsylvania. The investigation centered on what
the Government called "the Southside Gang," after
the neighborhood in which it was said to operate.
Over the first decade of the current century, York
law enforcement officials perceived in the city a
pattern of escalating violence that they attributed
primarily to a rivalry between the South Side and
Parkway, another supposed gang, named for a
public housing project in the northern part of
York. The Government associated this violence,
which also occasionally involved other
neighborhood groups, with the widespread drug
trafficking throughout the South Side. It was
believed that the principal sources of these drugs
—and concomitantly of the increased violence—
were individuals affiliated with the Bloods, who
had developed the South Side's existing drug
trafficking into a more organized operation.
1 We provide here a broad overview of the

cases’ factual and procedural background,
with particular attention to the five
categories of issues described above. More
detailed

factual

description

will

be

provided where relevant in Parts II-VI
below.

337

Legal proceedings began in mid-March 2014,
when a grand jury in the Middle District of
Pennsylvania returned an indictment of three men,
Hernandez, Roscoe Villega, and Douglas Kelly,
charging them on counts of drug-trafficking
conspiracy and drug trafficking. Shortly thereafter,
*337 government officials obtained and executed
search warrants for several locations across York,
seizing (among other things) drugs, drug
paraphernalia, cellphones, and money. Some of
this evidence, as well as some seized later, became
the subject of an ongoing contest between the
parties. Hernandez, Villega, and Kelly all pleaded
not guilty, but before they could proceed to trial, a
superseding indictment added Rolando Cruz, Jr. to
the list of defendants and supplemented the drug

2

3a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

B. Jury Selection

counts with two federal firearms charges. Cruz
also pleaded not guilty, but yet again, before a trial
could occur, matters developed further.

One year later, in September 2015, twelve of the
twenty-one
defendants
proceeded
to
a
consolidated trial before the Honorable Yvette
Kane. On Friday, September 18, with jury
selection set to begin the following Monday, the
District Court issued a series of orders related to
the upcoming voir dire . See D. Ct. Dkt. Nos. 73340. One such order stated:

In September, the grand jury returned a second
superseding indictment that vastly expanded the
scope and ambition of the prosecution. The
indictment now listed twenty-one defendants,
including the original four. It charged all twentyone on three counts: (I) conspiracy to violate 18
U.S.C. § 1962(c) of the Racketeer Influenced and
Corrupt Organizations Act (RICO), 18 U.S.C. §
1962(d) ; (II) conspiracy to distribute a controlled
substance, 21 U.S.C. § 846 ; and (III) distribution
of a controlled substance, 21 U.S.C. § 841(a).
Counts II and III specified drug quantities of 5
kilograms or more of powder cocaine, and 280
grams or more of crack cocaine.2 Distribution at

AND NOW, on this 18th day of
September, 2015, IT IS HEREBY
ORDERED THAT due to courtroom
capacity limitations, only (1) court
personnel, (2) defendants, (3) trial counsel
and support staff, and (4) prospective
jurors shall be allowed in the courtroom
during jury selection. No other individuals
will be present except by express
authorization of the Court.

these quantities carries increased penalties. See 21
U.S.C. § 841(b)(1)(A). The indictment also
included vestiges of its earlier iterations: three
additional firearms charges against Cruz,
Hernandez, Villega, and Kelly. Counts IV and V
variously charged Hernandez and Cruz with the
use of a firearm in relation to or in furtherance of a
drug-trafficking crime, 18 U.S.C. § 924(c).3 And
Count VI charged Cruz, Hernandez, Villega, and
Kelly4 under 18 U.S.C. § 924(o) —conspiracy to
violate § 924(c).
2 The statutory term "cocaine base," 21

U.S.C. § 841(b)(1)(A)(iii), (b)(1)(B)(iii),
encompasses but is not limited to crack
cocaine, covering all forms of "cocaine in
its chemically basic form." DePierre v.

App. 10.5 Other than the concern with "courtroom

338

capacity limitations," there is no further indication
in the record of the District Court's rationale for
conditionally barring the public from the juryselection proceedings. There is also no evidence of
*338 an objection to the order by either the
prosecution or the defense, nor is there any
evidence of a news organization or other member
of the public either seeking the District Court's
"express authorization" or being turned away by
court officials after attempting to attend the
proceedings.
5 All references to the Appendix simpliciter

United States , 564 U.S. 70, 89, 131 S.Ct.

are

2225, 180 L.Ed.2d 114 (2011). Because we

appendices: Volumes I and II of the

are concerned here specifically with crack,

Hernandez Appendix (pages 1-295), the

however, we will refer simply to it.

Government's Supplemental Appendix in

3 The District Court later dismissed Count

IV on the Government's motion at the
conclusion of its case in chief.
4 Also on the Government's motion at the

end of its case in chief, the District Court
dismissed Count VI as to Villega and
Kelly.

to

three

consecutively

paginated

Rice's case (pages 296-6902), and the
Villega Appendix (pages 6903-7018).

Jury selection lasted for two days, concluding on
Tuesday, September 22. During the process, Cruz's
trial counsel, Michael Wiseman, brought a Batson
challenge to the Government's first peremptory
strike of a prospective juror. The District Court

3

4a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

heard the objection in chambers rather than in the
courtroom itself, announcing its decision to do so
in open court. The District Court ultimately ruled
that the Government's strike was not motivated by
purposeful discrimination. After the hearing,
several defense counsel, led by John Yaninek,
counsel for Maurice Atkinson, objected to the
District Court's decision to hear the challenge out
of open court. The District Court provided a
detailed description of the hearing and the reasons
for its ruling, and Yaninek pursued the objection
no further at the time. All defense counsel
thereafter professed themselves satisfied with the
jury members, who were duly sworn.

generation of South Side drug dealers. At various
points, witnesses associated Rice, Schueg,
Atkinson, Anthony Sistrunk, and Tyree Eatmon
with Maple and Duke, while Williams was said to
be part of another crew, Maple and Manor. By
contrast, witnesses described Cruz, Hernandez,
and Kelly as principally distributors of crack to
street-level dealers. Villega was identified as an
associate of Cruz and Hernandez who dealt in
crack and heroin.

The trial commenced the next day, September 23,
2015. It appears that all other proceedings were
open to the public.

C. Trial
The Government's theory was that the defendants’
identification with the South Side constituted a
continuing, willful participation in a criminal
enterprise. The defense generally countered that,
despite the illegal activity that undoubtedly
occurred, expressions of a South Side identity
reflected at most a kind of autochthonous pride, a
loyalty borne of a common home, and did not
amount to the existence of a South Side gang or
criminal organization.
Witnesses depicted widespread drug trafficking
that was organized, or at least differentiated,
according to street blocks. Each block had a
group, or "crew," of individuals who would
"affiliate with each other," chiefly through selling
drugs, and in particular crack cocaine. App. 1523.
Some crews’ operations were more organized or
structured, but a person from any of the crews
could, without incident, sell drugs throughout the
South Side. The most prominent of these groups
was located at Maple and Duke Streets, near what
was called the Jungle—an area formed by four
streets, George, Queen, South, and Maple, with
Duke running through it. The Maple and Duke
crew was said to be made up largely of an older

339

Together with the descriptions of drug trafficking
were accounts of episodic violence. Members of
the crews would carry or store away firearms for
protection, and they would often retaliate when a
fellow South Side member was attacked. These
episodes frequently involved individuals from
Parkway, who were described as rivals, but also
occasionally other persons. Witnesses recalled,
among other incidents, reprisals for the wanton
killing of a nine-year-old girl, Ciara Savage, on
Mother's Day in 2009, a violent altercation
between South Side and Parkway members at a
gas station and store named Rutter's, and the
severe beating and eventual murder of a man in
the parking lot of a York restaurant *339 called
MoMo's. Such episodes, the Government charged,
were overt acts in furtherance of the criminal
enterprise, reflecting among other things the
preservation of territory and reputation. In general,
the defense sought to present these acts of
violence as the product of personal feuds, rather
than as indicative of a commitment to a larger
operation.

D. Verdicts and Sentencing
The jury returned its verdicts on November 16,
2015, announcing them seriatim, with only the
relevant defendant present. All twelve defendants
were found guilty on one or more of the counts
against them. They were subsequently sentenced
to various periods of incarceration and ordered to
pay certain fines and costs.

4

5a

United States v. Williams

The convictions and sentences of imprisonment of
the ten Defendants who have appealed to our
Court are as follows:

974 F.3d 320 (3d Cir. 2020)

• Williams: Convicted on Count III;
sentenced to 60 months of imprisonment.6
• Cruz: Convicted on Counts I, II, III, V,
and VI; sentenced to life terms of
imprisonment on Counts I-III, 5 years on
Count V, and 20 years on Count VI. The
terms on Counts I-III and VI are
concurrent; the term on Count V is
consecutive to those sentences.
• Hernandez: Convicted on Counts I, II,
III, V, and VI; sentenced to life terms of
imprisonment on Counts I-III, 20 years on
Count VI, and 60 months on Count V. The
terms on Counts I-III and VI are
concurrent; the term on Count V is
consecutive to the other sentences.
• Villega: Convicted on Counts I, II, and
III; sentenced to 300 months in prison on
each count, to be served concurrently.
• Rice: Convicted on Counts II and III;
sentenced to 200 months in prison on each
count, to be served concurrently.
• Kelly: Convicted on Counts I, II, and III;
sentenced to life terms of imprisonment on
each count, to be served concurrently.
• Schueg: Convicted on Counts II and III;
sentenced to 165 months in prison on each
count, to be served concurrently.
• Atkinson: Convicted on Counts I, II, and
III; sentenced to life terms of
imprisonment on each count, to be served
concurrently.
• Sistrunk: Convicted on Counts I, II, and
III; sentenced to 360 months in prison on
each count, to be served concurrently.
• Eatmon: Convicted on Counts I, II, and

5

6a

United States v. Williams

III; sentenced to 260 months in prison on
each count, to be served concurrently.
6 Williams's conviction on Count III was for

28-280 grams of crack cocaine and some
marijuana.

340

On appeal, these Defendants raise numerous
issues, described above, touching their convictions
and sentences.7 We have jurisdiction *340 to
resolve these issues under 28 U.S.C. § 1291 and
18 U.S.C. § 3742(a).8
7 While these appeals were pending, on

several

occasions

our

Clerk's

Office

encouraged the Defendants to adopt,
pursuant to Federal Rule of Appellate
Procedure 28(i), portions of already-filed
briefs

rather

than

raise

and

argue

duplicative issues. We appreciate that the
Defendants followed those suggestions, but
we have also made clear that general
statements of adoption under Rule 28(i)
will not be regarded. We will not serve as a
Defendant's lawyer, "scour[ing] the record"
for him and determining "which of the
many issues of his codefendants [are]
worthy of our consideration." United States
v. Fattah , 914 F.3d 112, 146 n.9 (3d Cir.
2019). We will resolve only those issues
specifically and explicitly identified by
each Defendant, noting where relevant a
Rule 28(i) adoption. All else results in
"abandonment and waiver." Id.
8 The District Court had jurisdiction under

18 U.S.C. § 3231.

II. THE PUBLIC-TRIAL ERROR
We begin with the District Court's closure of the
courtroom to the public during jury selection.
Because a ruling for the Defendants on this issue
would entail a reversal of their convictions and
remand for a new trial, we confront this question
at the outset. For the reasons that follow, we will
not exercise our discretion to correct the error.

974 F.3d 320 (3d Cir. 2020)

Review of a constitutional error of criminal
procedure is at bottom a matter of rights and
remedies: whether a constitutional right has been
violated, and whether a remedy shall be provided
for that violation. The District Court's closure of
the courtroom undoubtedly violated the
Defendants’ Sixth Amendment right to public
trial, Presley v. Georgia , 558 U.S. 209, 213, 130
S.Ct. 721, 175 L.Ed.2d 675 (2010) (per curiam),
and under Supreme Court precedent that sort of
violation is a "structural" error, see Arizona v.
Fulminante , 499 U.S. 279, 310, 111 S.Ct. 1246,
113 L.Ed.2d 302 (1991) (citing Waller v. Georgia ,
467 U.S. 39, 49 n.9, 104 S.Ct. 2210, 81 L.Ed.2d
31 (1984) ). Ordinarily contrasted with
constitutional errors subject to "harmless-error
analysis," Fulminante , 499 U.S. at 306, 111 S.Ct.
1246, this category represents "a limited class of
fundamental constitutional errors that," Neder v.
United States , 527 U.S. 1, 7, 119 S.Ct. 1827, 144
L.Ed.2d 35 (1999), by their very nature, "affect
substantial rights" and so cannot be "disregarded,"
Fed. R. Crim. P. 52(a). As a result, in determining
the availability of a remedy, no further inquiry
may be necessary beyond the fact of the violation
itself: the injured parties are entitled to "automatic
reversal." Neder , 527 U.S. at 7, 119 S.Ct. 1827.
Yet the Federal Rules of Criminal Procedure also
distinguish between preserved and unpreserved
errors. A party can invoke Rule 52(a) on appeal
only if he timely objected to the error, thus giving
the district court the opportunity to rectify, or at
least respond to, the purported problem. See Fed.
R. Crim. P. 51(b) (describing the procedure for
contemporaneous objection). If the Defendants
had done so here, and the District Court responded
inadequately, then they would indeed be entitled to
a new trial. But they did not object; and regardless
of the nature of the error, in direct appeals from
judgments of conviction in the federal system,
when there is no contemporaneous objection in the
district court, our review must be for plain error

A. Our Review Is for Plain Error

6

7a

United States v. Williams

under Federal Rule of Criminal Procedure 52(b).
Johnson v. United States , 520 U.S. 461, 466, 117
S.Ct. 1544, 137 L.Ed.2d 718 (1997).

341

A federal appellate court's authority to remedy an
unpreserved error "is strictly circumscribed."
Puckett v. United States , 556 U.S. 129, 134, 129
S.Ct. 1423, 173 L.Ed.2d 266 (2009). Following
the text of Rule 52(b), the Supreme Court has
described a four-part inquiry for plain-error
review. There must: (1) be an "error" that (2) is
"plain" and (3) "affects substantial rights." United
States v. Olano , 507 U.S. 725, 732, 113 S.Ct.
1770, 123 L.Ed.2d 508 (1993) (alteration omitted)
(quoting Fed. R. Crim. P. 52(b) ). If these three
conditions are satisfied, then it is "within the
sound discretion of the court of appeals" to correct
the forfeited error—but only if (4) "the error
‘seriously affects the fairness, integrity or public
reputation of judicial proceedings.’ " Id.
(alteration omitted) (quoting United States v.
Young , 470 U.S. 1, 15, 105 S.Ct. 1038, 84
L.Ed.2d 1 (1985) ). *341 "Meeting all four prongs
is difficult, as it should be." Puckett , 556 U.S. at
135, 129 S.Ct. 1423 (internal quotation marks
omitted). In this appeal, the Government concedes
that the District Court committed an error, and that
the error is plain. The dispute concerns Olano ’s
third and fourth prongs.

B. Olano Prong Three
"[I]n most cases," for an unpreserved error to
affect substantial rights it "must have been
prejudicial"—that is, "[i]t must have affected the
outcome of the district court proceedings." Olano ,
507 U.S. at 734, 113 S.Ct. 1770. The defendant
ordinarily has the burden of showing "a reasonable
probability that, but for the error claimed, the
result of the proceeding would have been
different." United States v. Dominguez Benitez ,
542 U.S. 74, 82, 124 S.Ct. 2333, 159 L.Ed.2d 157
(2004) (alteration omitted) (quoting United States
v. Bagley , 473 U.S. 667, 682, 105 S.Ct. 3375, 87
L.Ed.2d 481 (1985) (opinion of Blackmun, J.)).
However, the Court in Olano also acknowledged
that "[t]here may be a special category of forfeited

974 F.3d 320 (3d Cir. 2020)

errors that can be corrected regardless of their
effect on the outcome." 507 U.S. at 735, 113 S.Ct.
1770. Hernandez urges us not only to associate
this "special category" with structural error, but
also to give the error here the same effect it would
have in the Rule 52(a) context—automatic
reversal of the convictions. We cannot accept this
argument.
The Supreme Court has never held that Olano ’s
"special category" includes or is the same as that
of structural error. It therefore remains at least
unclear whether a structural error ipso facto
satisfies Olano ’s third prong. The Court has
consistently acknowledged but declined to address
this possibility. See United States v. Marcus , 560
U.S. 258, 263, 130 S.Ct. 2159, 176 L.Ed.2d 1012
(2010) ; Puckett , 556 U.S. at 140-41, 129 S.Ct.
1423 ; United States v. Cotton , 535 U.S. 625, 63233, 122 S.Ct. 1781, 152 L.Ed.2d 860 (2002) ;
Johnson , 520 U.S. at 469, 117 S.Ct. 1544 ; see
also Dominguez Benitez , 542 U.S. at 82, 124
S.Ct. 2333 (suggesting that Olano ’s third prong
should be treated as "[ ]tethered to a prejudice
requirement" in cases of "nonstructural error").
We too find it unnecessary to take that doctrinal
leap here. Because, as detailed below, a federal
appellate court's evaluation of Olano ’s fourth
prong is independent of whether the third has been
satisfied, and the District Court's error in this case
did not "seriously affect the fairness, integrity or
public reputation of judicial proceedings," Olano ,
507 U.S. at 736, 113 S.Ct. 1770, we do not need to
decide whether the error also affected the
Defendants’ substantial rights.9
9 Our dissenting colleague would presume

prejudice given the nature of the error at
issue here. See Dissenting Op. at III.A. We
emphasize that in declining to conduct an
inquiry at prong three, we intend no
suggestion that the present error, or any
structural error, does not warrant a
presumption of prejudice. Our conclusion
at prong four simply renders a decision on
that question unnecessary, and we will not
go out of our way to make new law. The

7

8a

United States v. Williams
dissent, by contrast, must address prong
three because of its contrary conclusion at
prong four.

C. Olano Prong Four
1. Structural Error Generally

342

The fact that a type of error has been deemed
"structural" has no independent significance for
applying Olano ’s fourth prong. In all direct
appeals arising in the federal system, "the
seriousness of the error claimed does not remove
consideration of it from the ambit of the Federal
Rules of Criminal Procedure." Johnson , 520 U.S.
at 466, 117 S.Ct. 1544. Rule 52(b) states that a
court "may" consider "[a] plain error that affects
substantial rights." If Olano ’s first three prongs
are satisfied, the court of appeals has the
"authority" to *342 notice the error, "but is not
required to do so." Olano , 507 U.S. at 735, 113
S.Ct. 1770. "[A] plain error affecting substantial
rights does not, without more, satisfy" Olano ’s
fourth prong. Id. at 737, 113 S.Ct. 1770. Thus,
even if we accepted that a structural error
necessarily affects substantial rights, our decision
would still be an exercise of discretion, calling for
an independent inquiry on the fourth prong.10
10 It is true, as Hernandez points out, that our

Court has in the past "assume[d]" in dictum
that a structural error "would constitute per
se reversible error even under plain error
review." United States v. Syme , 276 F.3d
131, 155 n.10 (3d Cir. 2002). Yet we are
not bound by that statement, and it is in
any event contrary to the Supreme Court
guidance just detailed.

Nevertheless, although a structural error is not to
be given automatic effect in the Rule 52(b)
context, the same considerations that in other
contexts render its correction automatic may
coincide with the appropriate exercise of judicial
discretion to notice an unpreserved error. A
structural defect is an error "affecting the
framework within which the trial proceeds, rather
than simply an error in the trial process itself."

974 F.3d 320 (3d Cir. 2020)

Fulminante , 499 U.S. at 310, 111 S.Ct. 1246.
When such an error occurs over a
contemporaneous objection, the trial "cannot
reliably serve its function as a vehicle for
determination of guilt or innocence, and no
criminal punishment may be regarded as
fundamentally fair." Id. (quoting Rose v. Clark ,
478 U.S. 570, 577-78, 106 S.Ct. 3101, 92 L.Ed.2d
460 (1986) ). The origins of Rule 52(b) lie in the
recognition that "if a plain error was committed in
a matter so absolutely vital to defendants," the
reviewing court is "at liberty to correct it." Wiborg
v. United States , 163 U.S. 632, 658, 16 S.Ct.
1127, 41 L.Ed. 289 (1896). When the error
threatens "the fair and impartial conduct of the
trial," the fact that it was not raised
contemporaneously "does not preclude [the
appellate court] from correcting [it]." Brasfield v.
United States , 272 U.S. 448, 450, 47 S.Ct. 135,
71 L.Ed. 345 (1926). As the Supreme Court said
in its most recent case on this issue, "the public
legitimacy of our justice system relies on
procedures that are neutral, accurate, consistent,
trustworthy, and fair, and that provide
opportunities for error correction." RosalesMireles v. United States , ––– U.S. ––––, 138 S.
Ct. 1897, 1908, 201 L.Ed.2d 376 (2018) (internal
quotation marks omitted).
Therefore, even when confronting a structural
error, a federal court of appeals should evaluate
the error in the context of the unique
circumstances of the proceeding as a whole to
determine whether the error warrants remedial
action. See id. at 1909 ("[A]ny exercise of
discretion at the fourth prong of Olano inherently
requires ‘a case-specific and fact-intensive’
inquiry." (quoting Puckett , 556 U.S. at 142, 129
S.Ct. 1423 )). The very nature of the error may
warrant a remedy in the ordinary case, id. at 1909
n.4, and actual innocence is dispositive, Olano ,
507 U.S. at 736, 113 S.Ct. 1770, but these are not
the same as automatic reversal. In all direct

8

9a

United States v. Williams

appeals from a criminal conviction in the federal
system, the discretion contemplated by Rule 52(b)
is to be preserved.

2. Public-Trial Error Specifically
This conclusion receives additional support from
our own and the Supreme Court's case law on
violations of the Sixth Amendment right to a
public trial.

343

The presence of a contemporaneous objection is
an important reason why violations of that right
were deemed structural error. As early as 1949—
in a case, like the present ones, from the Middle
District of Pennsylvania—our Court reversed a
criminal conviction and remanded for a new trial
due to a Sixth Amendment public-trial *343
violation. United States v. Kobli , 172 F.2d 919,
924 (3d Cir. 1949) (en banc). In doing so, we held
"that the Sixth Amendment precludes the general
indiscriminate exclusion of the public from the
trial of a criminal case in a federal court over the
objection of the defendant ." Id. at 923 (emphasis
added). Further, in a later case we maintained that
"a defendant who invokes the constitutional
guarantee of a public trial need not prove actual
prejudice" on appeal. United States ex rel. Bennett
v. Rundle , 419 F.2d 599, 608 (3d Cir. 1969) (en
banc).
The Supreme Court has expressed similar
sentiments. Like Rundle , Waller concerned a
Sixth Amendment challenge to a state trial court's
closure of a suppression hearing. Under its First
Amendment precedent, the Court noted, "the right
to an open trial" is generally, but not absolutely,
paramount. Waller , 467 U.S. at 45, 104 S.Ct.
2210 (citing, e.g., Press-Enterprise Co. v. Superior
Court , 464 U.S. 501, 104 S.Ct. 819, 78 L.Ed.2d
629 (1984) ). To justify a closure, there must be
"an overriding interest that is likely to be
prejudiced, the closure must be no broader than
necessary to protect that interest, the trial court
must consider reasonable alternatives to closing
the proceeding, and it must make findings
adequate to support the closure." Id. at 48, 104

974 F.3d 320 (3d Cir. 2020)

S.Ct. 2210. Waller extended this framework to the
Sixth Amendment, holding "that under the Sixth
Amendment any closure of a suppression hearing
over the objections of the accused must meet the
tests set out in Press-Enterprise and its
predecessors." Id. at 47, 104 S.Ct. 2210 (emphasis
added). The Court later applied this standard to a
state court's closure of jury selection to the public.
Presley , 558 U.S. at 213, 130 S.Ct. 721. As in
Waller , defense counsel had objected
contemporaneously. Id. at 210, 130 S.Ct. 721.
Under these cases, then, a violation of the right to
a public trial is a reversible error when a party
lodges a contemporaneous objection and the trial
court fails to articulate the interest behind the
closure or to make the appropriate findings.
The Supreme Court's first consideration of a Sixth
Amendment public-trial violation in the absence
of a contemporaneous objection came in Weaver v.
Massachusetts , ––– U.S. ––––, 137 S. Ct. 1899,
198 L.Ed.2d 420 (2017). Yet that case arose not
under Rule 52(b), but rather in a state collateral
proceeding, on a claim of ineffective assistance of
counsel. The Court held that, in this context, the
proper standard to apply is the familiar one under
Strickland v. Washington , 466 U.S. 668, 104 S.Ct.
2052, 80 L.Ed.2d 674 (1984). See 137 S. Ct. at
1910-12. While the Sixth Amendment public-trial
right "is important for fundamental reasons," the
Court explained, "in some cases an unlawful
closure might take place and yet the trial still will
be fundamentally fair from the defendant's
standpoint." Id. at 1910. This reality underlines the
importance of a contemporaneous objection,
which gives the trial court "the chance to cure the
violation either by opening the courtroom or by
explaining the reasons for closure." Id. at 1912.
The Court also noted that "when state or federal
courts adjudicate errors objected to during trial
and then raised on direct review, the systemic
costs of remedying the error are diminished to
some extent." Id. By contrast, an ineffectiveassistance-of-counsel claim first raised in
postconviction proceedings " ‘can function as a

9

10a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

way to escape rules of waiver and forfeiture and
raise issues not presented at trial,’ thus
undermining the finality of jury verdicts." Id.
(quoting Harrington v. Richter , 562 U.S. 86, 105,
131 S.Ct. 770, 178 L.Ed.2d 624 (2011) ). The
Court concluded that Weaver had not carried his
burden to show either that he had been prejudiced
or that the trial was rendered fundamentally unfair.
Id. at 1913.

344

under Olano ’s fourth prong. Rosales-Mireles ,
138 S. Ct. at 1909 (internal quotation marks
omitted).

3. The Legal Standard
Given the relative novelty of a public-trial error
reviewed under Rule 52(b), our inquiry must look
to general principles discernible in our own and
the Supreme Court's case law on Olano ’s fourth
prong and its antecedents. Because "each case
necessarily turns on its own facts," an appellate
court's exercise of discretion is properly based on
its evaluation of which result would most
"promote the ends of justice." United States v.
Socony-Vacuum Oil Co. , 310 U.S. 150, 240, 60
S.Ct. 811, 84 L.Ed. 1129 (1940). In conducting
this evaluation, the Court has frequently weighed
the costs to the fairness, integrity, and public
reputation of judicial proceedings that would
result from allowing the error to stand with those
that would alternatively result from providing a
remedy. We will adopt this standard here.

Our principal question must be whether and how
Weaver ’s analysis in the collateral-review *344
context informs plain-error review of public-trial
violations. The conclusion that not every publictrial violation results in fundamental unfairness
supports the particularized inquiry described
above. And while the concern with the finality of
judgments might ostensibly distinguish Weaver ’s
context from the present one, it is nevertheless
true that reversal for an error raised for the first
time on direct review carries its own "systemic
costs." The unique considerations raised by appeal
on an unpreserved error should not be disregarded
simply because of the nature of the error. They
may be overcome, but not disregarded. See
Puckett , 556 U.S. at 135, 129 S.Ct. 1423 ("We
have repeatedly cautioned that any unwarranted
extension of the authority granted by Rule 52(b)
would disturb the careful balance it strikes
between judicial efficiency and the redress of
injustice." (alteration and internal quotation marks
omitted)); United States v. Atkinson , 297 U.S.
157, 159, 56 S.Ct. 391, 80 L.Ed. 555 (1936)
(observing that the practice of not correcting
unpreserved errors is in part "founded upon
considerations ... of the public interest in bringing
litigation to an end after fair opportunity has been
afforded to present all issues of law and fact").

First , in determining the costs of inaction, the
Supreme Court has focused chiefly upon the
error's effect on the values or interests protected
by the violated right. For example, at stake in
Rosales-Mireles —which involved a Sentencing
Guidelines calculation error—was the defendant's
liberty, and an error "reasonably likely to have
resulted in a longer prison sentence than
necessary" sufficiently compromised that interest
to advise correction. 138 S. Ct. at 1910. A
reasonable citizen, the Court noted, would "bear a
rightly diminished view of the judicial process and
its integrity" if the error were allowed to stand. Id.
at 1908 (quoting United States v. Sabillon-Umana
, 772 F.3d 1328, 1333-34 (10th Cir. 2014) ); see
also United States v. Dahl , 833 F.3d 345, 359 (3d
Cir. 2016).

In sum, both our own and the Supreme Court's
jurisprudence on the Sixth Amendment right to a
public trial support the application here of the
"case-specific and fact-intensive inquiry" that a
federal appellate court is normally to conduct

Similarly, in other contexts, the Court has looked
to the error's effect on the jury's verdict. In Cotton
and Johnson , the interests underlying the right at
issue11 were not so compromised that correction
345

was

warranted—in

each

case,

*345

10

11a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

notwithstanding the error, the evidence supporting
conviction was "overwhelming" and "essentially
uncontroverted." Cotton , 535 U.S. at 633, 122
S.Ct. 1781 ; Johnson , 520 U.S. at 470, 117 S.Ct.
1544 ; see also United States v. Vazquez , 271 F.3d
93, 105-06 (3d Cir. 2001) (en banc). Likewise, in
Young , the harmful effects of a prosecutor's
inappropriate statements—a violation of his "duty
to refrain from overzealous conduct," 470 U.S. at
7, 105 S.Ct. 1038 —were sufficiently "mitigated,"
both by improper statements of defense counsel
and by "overwhelming evidence," id. at 16-19,
105 S.Ct. 1038.

correction of the error. In Rosales-Mireles , the
Court allowed that "countervailing factors [could]
satisfy the court of appeals that the fairness,
integrity, and public reputation of the proceedings
will be preserved absent correction," though it did
not elaborate on what such factors might be,
concluding only that none existed in the case
before it. 138 S. Ct. at 1909.
Second , against these considerations of the costs
of inaction, the Court has weighed the costs to the
fairness, integrity, and public reputation of judicial
proceedings that would alternatively result from
noticing the error. In Rosales-Mireles , the Court
noted "the relative ease of correcting the error," id.
at 1908, commenting that "a remand for
resentencing, while not costless, does not invoke
the same difficulties as a remand for retrial does,"
id. (quoting Molina-Martinez v. United States ,
––– U.S. ––––, 136 S. Ct. 1338, 1348-49, 194
L.Ed.2d 444 (2016) ); see also United States v.
Williams , 399 F.3d 450, 456 (2d Cir. 2005) ("A
legal system seeks to protect rights, but it also
takes into account the costs in time, resources, and
disruption in the lives of participants ... that result
when a case must be tried a second time."). And in
Cotton and Johnson , the Court perceived "[t]he
real threat ... to the fairness, integrity, and public
reputation of judicial proceedings" to be if the
error were corrected "despite the overwhelming
and uncontroverted evidence that" the outcome of
the proceeding would have been the same
regardless. Cotton , 535 U.S. at 634, 122 S.Ct.
1781 (internal quotation marks omitted); see also
Johnson , 520 U.S. at 470, 117 S.Ct. 1544.

11 A criminal defendant is entitled to "a jury

determination that [he] is guilty of every
element of the crime with which he is
charged, beyond a reasonable doubt."
Apprendi v. New Jersey , 530 U.S. 466,
477, 120 S.Ct. 2348, 147 L.Ed.2d 435
(2000) (alteration in original) (quoting
United States v. Gaudin , 515 U.S. 506,
510, 115 S.Ct. 2310, 132 L.Ed.2d 444
(1995) ).

Evaluation of the degree to which an error has
compromised the violated right's underlying
values or interests does not, however, necessarily
reduce to a determination of whether the error
likely altered the outcome of the proceeding.
Though a "court of appeals should no doubt
correct a plain forfeited error that causes the
conviction or sentencing of an actually innocent
defendant," the Supreme Court has "never held
that a Rule 52(b) remedy is only warranted in
cases of actual innocence." Olano , 507 U.S. at
736, 113 S.Ct. 1770 (emphasis in original); see
also Rosales-Mireles , 138 S. Ct. at 1906. In cases
predating Cotton , Johnson , and Young , for
example, the Court held that the error at issue
sufficiently compromised the fairness and
impartiality of the trial that correction was
justified. See Brasfield , 272 U.S. at 450, 47 S.Ct.
135 ; Clyatt v. United States , 197 U.S. 207, 222,
25 S.Ct. 429, 49 L.Ed. 726 (1905). At the same
time, apart from cases of actual innocence, an
altered outcome does not in itself necessitate

4. Application and Resolution

346

Applying this standard, we conclude that the
District Court's error does not warrant reversal of
the Defendants’ convictions and remand for a new
trial.12 *346 First , the costs of inaction, while not
negligible, do not rise to the level recognized in
other cases where a remedy has been provided.
The Sixth Amendment's public-trial guarantee is
"for the benefit of the accused." Waller , 467 U.S.

11

12a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

at 46, 104 S.Ct. 2210 (quoting Gannett Co. v.
DePasquale , 443 U.S. 368, 380, 99 S.Ct. 2898,
61 L.Ed.2d 608 (1979) ). It is a means of ensuring
the fairness of the trial—"that the presence of
interested spectators may keep [the defendant's]
triers keenly alive to a sense of their responsibility
and to the importance of their functions." Id. ; see
also United States v. Lnu , 575 F.3d 298, 305 (3d
Cir. 2009) ("The knowledge that every criminal
trial is subject to contemporaneous review in the
forum of public opinion is an effective restraint on
possible abuse of judicial power." (quoting
Gannett , 443 U.S. at 380, 99 S.Ct. 2898 )). More
broadly, public access to trial proceedings helps
sustain public confidence that standards of fairness
are being observed. See Press-Enterprise , 464
U.S. at 509, 104 S.Ct. 819.

proceedings. Jury selection ultimately lasted only
two days, September 21 and 22, with the trial
beginning on September 23. All other proceedings
were open to the public, and a transcript of the
jury voir dire was later made available.
Even on this sparse record, there are facts that
suggest some costs should the error remain
uncorrected. The closure order came from the
District Court itself and extended across an entire
phase of the trial. The Court apparently issued the
order unprompted, and there is no indication that it
—albeit without objection to the order by the
parties, counsel, or the public—considered
reasonable alternatives. It is undeniable that the
order to some degree compromised the values
underlying the public-trial right. It had the
potential to call into question the fairness,
integrity, and public reputation of judicial
proceedings because it stamped the violation of
the Defendants’ Sixth Amendment right with the
imprimatur of the federal judiciary itself, thereby
undermining public confidence in its impartiality.

12 We acknowledge that one of our sister

circuits has reached a different conclusion.
See United States v. Negrón-Sostre , 790
F.3d 295, 306 (1st Cir. 2015). However,
that case was decided prior to Weaver and
Rosales-Mireles , and it relied in part upon
circuit precedent that Weaver subsequently
abrogated. See id. (stating that Owens v.
United States , 483 F.3d 48 (1st Cir. 2007),
"guides our analysis"); see also Lassend v.
United States , 898 F.3d 115, 122 (1st Cir.
2018)

(acknowledging

Weaver

’s

abrogation of Owens ).

The District Court's September 18 order stated
that, "due to courtroom capacity limitations," only
court personnel, defendants, trial counsel and
support staff, and prospective jurors would be
allowed in the courtroom during jury selection.
App. 10. All other individuals could be present
only "by express authorization of the Court." Id.
As noted above, the record gives no further
indication of the District Court's rationale for
issuing the order. There is no evidence that any
party or member of the press or public objected to
the order, nor is there any evidence of an
individual or news organization either seeking
authorization from the District Court or being
turned away after attempting to attend the

347

Nevertheless, there are several countervailing
factors that sufficiently mitigate this possibility.
For one, although the closure encompassed all of
the jury-selection phase, those proceedings lasted
only two days; the public had access to all other
phases of the trial, which in total lasted longer
than seven weeks. See, e.g. , Weaver , 137 S. Ct. at
1913 ("The closure was limited to the jury voir
dire ; the courtroom remained open during the
evidentiary phase of the trial."); Press-Enterprise ,
464 U.S. at 510, 104 S.Ct. 819 (finding it
significant that "[a]lthough three days of voir dire
in this case were open to the public, six weeks of
the proceedings were closed" (emphasis in
original)). Further, a transcript of the proceedings
was produced *347 and later disclosed. See D. Ct.
Dkt. Nos. 974-993, 997-1005, 1024-1027; see also
Weaver , 137 S. Ct. at 1913 ; Press-Enterprise ,
464 U.S. at 513, 104 S.Ct. 819. And as our Court
has said, "[i]t is access to the content of the
proceeding—whether in person, or via some form
of documentation—that matters." United States v.

12

13a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

Antar , 38 F.3d 1348, 1359-60 (3d Cir. 1994)
(emphasis omitted).13 Moreover, knowledge both

Second , the costs of remedial action here would
be significant. Unlike in Rosales-Mireles , we are
confronted with a remand for a new trial in ten
consolidated cases whose original trial occurred
almost five years ago, spanned approximately two
months, and involved well over one hundred
witnesses. But even in the absence of the heavy
burdens specific to these cases, the prospect of
retrial demands "a high degree of caution,"
Rosales-Mireles , 138 S. Ct. at 1909, and
implicates more fully the Supreme Court's
admonition that we exercise our discretion under
Rule 52(b) "sparingly," id. (quoting Jones v.
United States , 527 U.S. 373, 389, 119 S.Ct. 2090,
144 L.Ed.2d 370 (1999) ). Moreover, when the
Supreme Court in Waller acknowledged a publictrial error under the Sixth Amendment, it did not
automatically reverse the convictions and remand
for a new trial. Even there, on review of a
preserved error, it cautioned that "the remedy
should be appropriate to the violation" and
contemplated the possibility that in some instances
"a new trial ... would be a windfall for the
defendant, and not in the public interest." 467 U.S.
at 50, 104 S.Ct. 2210. The same general
consideration applies here: the remedy is to be
assessed relative to the costs of the error.

of the media's attention to the trial and of the
transcript's production (which ensures publicity in
perpetuity) may have had a similar effect on the
proceedings’ participants as real-time public
access would have had, keeping them "keenly
alive to a sense of their responsibility and to the
importance of their functions." Waller , 467 U.S.
at 46, 104 S.Ct. 2210 (quoting Gannett , 443 U.S.
at 380, 99 S.Ct. 2898 ). In addition, although the
general public was not, absent authorization, able
to be present at jury selection, as in Weaver ,
"there were many members of the venire who did
not become jurors but who did observe the
proceedings." 137 S. Ct. at 1913. Finally, there has
been "no suggestion of misbehavior by the
prosecutor, judge, or any other party; and no
suggestion that any of the participants failed to
approach their duties with the neutrality and
serious purpose that our system demands." Id.
13 This is not to suggest, as Antar makes

clear, that subsequent release of the
transcript may substitute for closure. See
38 F.3d at 1360 n.13. Our point here is that,
for

purposes

of

plain-error

review,

subsequent disclosure of the transcript,
while not a perfect substitute, at least

***

mitigates the harm caused by the closure.

The ways, then, in which the closure potentially
compromised the values protected by the
Defendants’ Sixth Amendment right are answered
by countervailing factors suggesting that those
values were in other respects substantially
vindicated—that, in spite of the closure, the juryselection proceedings possessed the publicity,
neutrality, and professionalism that are essential
components of upholding an accused's right to a
fair and public trial. Allowing the error to stand
would not leave in place an unmitigated
nullification of the values and interests underlying
the right at issue.

348

The practical costs of correcting the District
Court's error are not dispositive,14 but *348 when
we consider them along with the mitigated costs
of inaction, we decline to exercise our discretion
in this instance. The importance of the
"searchlight" of the public trial is "deeply rooted"
in the history of our federal constitutional order
and system of justice; and it has long been a
feature of our Court's jurisprudence. Rundle , 419
F.2d at 605-06. Nevertheless, on this record, we
cannot say that the values underlying the
Defendants’ right to a public trial were sufficiently
compromised that the costs to the fairness,
integrity, and public reputation of judicial
proceedings that would result from letting the
District Court's error stand outweigh those that

13

14a

United States v. Williams

would alternatively result from reversing the
Defendants’ convictions and remanding for a new
trial. We cannot, in sum, say that the District
Court's closure of jury selection to the public
"seriously affect[ed] the fairness, integrity, or
public reputation of judicial proceedings." Olano ,
507 U.S. at 736, 113 S.Ct. 1770.15
14 There was some dispute at oral argument

over

the

analytical

significance

of

sandbagging, despite no suggestion that it
occurred here. See Oral Arg. at 2:53:282:55:54;

3:01:24-3:02:30.

Although

sandbagging can be a concern, see United
States v. Bansal , 663 F.3d 634, 661 (3d
Cir. 2011), we decline here to give it
weight. For one, it is already accounted for
doctrinally through the Olano test. See
Puckett , 556 U.S. at 134, 129 S.Ct. 1423.
And the specter of sandbagging is most
acute where the precedent established
would be an automatic new trial. Under our
standard, there is no such automaticity,
each case turning on its own facts.
15 Our dissenting colleague places great

weight on the distinction between harmless
and structural error. He suggests that in

974 F.3d 320 (3d Cir. 2020)
the dissent simply weighs the costs of
inaction differently here, we acknowledge
his concerns, but respectfully reach the
opposite conclusion on the facts before us.

III.
RIGHT-TO-PRESENCE
CHALLENGE
Atkinson argues that the District Court's in camera
resolution of the Batson challenge during jury
selection violated his constitutional "right to
personal presence at all critical stages of the trial."
Rushen v. Spain , 464 U.S. 114, 117, 104 S.Ct.
453, 78 L.Ed.2d 267 (1983) (per curiam); see also
Kentucky v. Stincer , 482 U.S. 730, 745, 107 S.Ct.
2658, 96 L.Ed.2d 631 (1987). He further contends
that the exclusion was sufficiently prejudicial to
warrant a new trial. The Supreme Court has made
clear that violations of the right to be present are
subject to harmless-error review. See Fulminante ,
499 U.S. at 306-07, 111 S.Ct. 1246 (citing Rushen
, 464 U.S. at 117-18 & n.2, 104 S.Ct. 453 ). We
may assume without deciding that there was a
violation here, because even if an error occurred,
"it was harmless beyond a reasonable doubt."
Chapman v. California , 386 U.S. 18, 24, 87 S.Ct.
824, 17 L.Ed.2d 705 (1967).16

considering the costs of letting the error

16 Kelly adopts Atkinson's argument under

stand, we improperly "rel[y] on cases that

Rule 28(i).

consider errors reviewed for harmlessness."
Dissenting Op. at III.B. And rather than
accounting for the costs of correction, he
thinks "[t]he nature of the error ... must be
the lodestar of our" analysis. Id. But "the
term ‘structural error’ carries with it no
talismanic significance as a doctrinal
matter." Weaver , 137 S. Ct. at 1910. The
present cases ask us to weigh the
intersection
distinctions
harmless

of
in
and

two
criminal
structural

fundamental
procedure:
error,

and

preserved and unpreserved error. The
dissent would give dispositive weight to
the former. In our view, at least in the
context of public-trial errors, neither the
case law nor the competing values at stake
warrant that approach. And to the extent

In evaluating a putative equal protection violation
under Batson , trial courts are to follow a threestep process.
First, a defendant must make a prima facie
showing that a peremptory challenge has
been exercised on the basis of race.
Second, if that showing has been made, the
prosecution must offer a race-neutral basis
for striking the juror in question. Third, in
light of the parties’ submissions, the trial
court must determine
349 *349

whether the defendant
purposeful discrimination.

has

shown

14

15a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

Miller-El v. Cockrell , 537 U.S. 322, 328-29, 123
S.Ct. 1029, 154 L.Ed.2d 931 (2003) (citing Batson
, 476 U.S. at 96-98, 106 S.Ct. 1712 ). "[T]he job
of enforcing Batson rests first and foremost with
trial judges," who may consider a number of
factors
in
determining
whether
racial
discrimination has occurred. Flowers v.
Mississippi , ––– U.S. ––––, 139 S. Ct. 2228,
2243, 204 L.Ed.2d 638 (2019). These include:
whether the prosecutor's proffered explanations
are pretextual, see Snyder v. Louisiana , 552 U.S.
472, 485, 128 S.Ct. 1203, 170 L.Ed.2d 175
(2008), which can be shown through "side-by-side
comparisons of some black venire panelists who
were struck and white panelists allowed to serve,"
Miller-El v. Dretke , 545 U.S. 231, 241, 125 S.Ct.
2317, 162 L.Ed.2d 196 (2005) ; "a prosecutor's
misrepresentations of the record when defending
the strike[ ]," Flowers , 139 S. Ct. at 2243 ; and
any other "circumstantial evidence that ‘bears
upon the issue of racial animosity,’ " Foster v.
Chatman , ––– U.S. ––––, 136 S. Ct. 1737, 1754,
195 L.Ed.2d 1 (2016) (alteration omitted) (quoting
Snyder , 552 U.S. at 478, 128 S.Ct. 1203 )).
Batson ’s third step "turns on factual
determinations, and, ‘in the absence of exceptional
circumstances,’ we defer to [trial] court factual
findings unless we conclude that they are clearly
erroneous." Id. at 1747 (quoting Snyder , 552 U.S.
at 477, 128 S.Ct. 1203 )).
Here, there is no reasonable basis for concluding
that prejudice resulted from the District Court's
conduct of the Batson hearing. At no point during
the hearing or afterward did the District Court or
defense counsel suggest that any of the
Government's proffered reasons were pretextual,
that the Government had misrepresented the
record, or that any other circumstantial evidence
suggested racial bias. Indeed, Wiseman—who had
raised the objection and was one of two defense
counsel present—acknowledged at the hearing,
and Atkinson concedes on appeal, that the
Government "stated race-neutral reasons." App.
667. And when Wiseman and Royce Morris, the

other defense attorney present, questioned whether
the characteristics that led the Government to
strike the juror were unique among the persons in
the venire, the District Court proceeded, with
Wiseman and Morris's assistance, to search the
questionnaires for any other remaining juror with
characteristics similar those for which the juror
was struck—in particular, the existence of
multiple relatives who had been criminally
convicted and imprisoned, including for drug
trafficking. The search revealed no comparable
jurors still on the panel. The record before us
provides no basis for doubting the District Court's
side-by-side comparison of the jurors. See Davis v.
Ayala , 576 U.S. 257, 274, 135 S.Ct. 2187, 192
L.Ed.2d 323 (2015).17 Finally, we have not been
shown any evidence that might otherwise
contradict the Government's representations or
suggest that it acted on grounds of racial animus.
17 Ayala was decided under the stricter

standard applied on habeas review of a
state court decision. See 576 U.S. at 26768, 135 S.Ct. 2187. However, the Court
gives no indication that its decision on this
point would have been different under the
"clear error" standard we are to apply here.
See Foster, 136 S. Ct. at 1747.

In sum, we have no reason to conclude that
Atkinson's absence from the Batson hearing was
prejudicial.
If,
therefore,
"the
alleged
constitutional error" occurred, it was "harmless
beyond a reasonable doubt." Rushen , 464 U.S. at
121, 104 S.Ct. 453.

IV. EVIDENTIARY CHALLENGES
350

The Defendants’ evidentiary challenges fall into
three basic categories. First, Kelly *350 and
Sistrunk appeal the District Court's denial of their
motions to suppress evidence obtained from
searches of their residences. Second, Atkinson
asserts that the Government knowingly persisted
in the use of perjured testimony, thus violating his
constitutional right to due process. Finally, those

15

16a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

Defendants and four others challenge some of the
District Court's decisions regarding the admission
of evidence. We find no error in any instance.

describing the place to be searched, and the
persons or things to be seized." U.S. Const.
amend. IV. This clause was intended "to affirm
and preserve a cherished rule of the common law,
designed to prevent the issue of groundless
warrants." McGrain v. Daugherty , 273 U.S. 135,
156, 47 S.Ct. 319, 71 L.Ed. 580 (1927). We are
satisfied that the warrant to search Kelly's
residence was not groundless: Special Agent
Endy's affidavit supplied a sufficient basis for
probable cause.

A. Suppression
Shortly after the grand jury returned its initial
indictment in March 2014, federal agents searched
Kelly's apartment at 337 East Philadelphia Street
in York, seizing evidence later introduced at trial.
Almost exactly six months later, just after the
return of the second superseding indictment,
agents conducted a similar search of Sistrunk's
apartment, located at 326 West Philadelphia
Street, also seizing evidence that was later
introduced. The Government conducted each
search pursuant to a warrant issued by Magistrate
Judge Carlson. ATF Special Agent Scott Endy
signed the warrant applications and attached a
sworn affidavit to each of them, detailing his
decades-long experience in federal law
enforcement, the history of the South Side
investigation, and the basis for probable cause. To
establish the latter, he relied in part upon
information provided by several confidential
informants relating to Kelly and Sistrunk's drugtrafficking activities.
Approximately two months before the trial, Kelly
and Sistrunk filed motions to suppress the
evidence obtained from the searches. They
contended that the information in the affidavits
was insufficient to establish a factual basis for
probable cause and that the exclusionary rule's
good-faith exception did not apply. The District
Court held hearings on the motions on August 28,
2015 and denied both of them less than a week
later. It included with each of its orders a
memorandum explaining its decision. Kelly and
Sistrunk now appeal those orders, raising largely
the same arguments they did before the District
Court.

1. Kelly
"[N]o Warrants shall issue," the Fourth
Amendment declares, "but upon probable cause,
supported by Oath or affirmation, and particularly

The Legal Standard

351

"Our review of the denial of a motion to suppress
is for clear error as to the District Court's findings
of fact, and plenary as to legal conclusions in light
of those facts." United States v. Hester , 910 F.3d
78, 84 (3d Cir. 2018). In contexts like the present,
though, that latter standard applies only to our
review of "the District Court's evaluation of the
magistrate's probable cause determination."
United States v. Stearn , 597 F.3d 540, 554 (3d Cir.
2010). We pay great deference to the magistrate's
initial determination, asking only "whether ‘the
magistrate had a substantial basis for concluding
that probable cause existed.’ " Id. (quoting Illinois
v. Gates , 462 U.S. 213, 238-39, 103 S.Ct. 2317,
76 L.Ed.2d 527 (1983) ). It is distinctly the
magistrate's task to make the "practical, commonsense decision whether, given all the
circumstances set forth in the affidavit before him,
including the veracity and basis of knowledge of
persons supplying *351 hearsay information, there
is a fair probability that contraband or evidence of
a crime will be found in a particular place." Gates
, 462 U.S. at 238, 103 S.Ct. 2317 (internal
quotation marks omitted).
Specifically,
"[w]hen
the
crime
under
investigation is drug distribution, a magistrate may
find probable cause to search the target's residence
even without direct evidence that contraband will
be found there." Stearn , 597 F.3d at 558. We have
long maintained that when a suspect is involved in
drug trafficking, on a significant scale or for an
extended period of time, it is reasonable to infer
16

17a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

that he would store evidence of that illicit activity
in his home. See United States v. Hodge , 246 F.3d
301, 306 (3d Cir. 2001) ; United States v. Whitner ,
219 F.3d 289, 297-98 (3d Cir. 2000). It is
insufficient, however, if the affidavit suggests only
that the suspect "is actually a drug dealer" and
"that the place to be searched is possessed by, or
the domicile of, the [suspect]." United States v.
Burton , 288 F.3d 91, 104 (3d Cir. 2002). There
must also be evidence "linking [the targeted
location] to the [suspect]’s drug activities." Id.
(emphasis added). "[T]he search of a drug dealer's
home would be unreasonable if the affidavit
suggested no reason to believe contraband would
be found there." Stearn , 597 F.3d at 559.
Further, when (as here) the affidavit refers to
information gained from confidential informants,
bare conclusory assertions by the affiant of the
reliability and veracity of the informants are
insufficient. See Gates , 462 U.S. at 239, 103 S.Ct.
2317. "Mere affirmance of belief or suspicion is
not enough." Nathanson v. United States , 290
U.S. 41, 47, 54 S.Ct. 11, 78 L.Ed. 159 (1933). But
when "independent police work" substantially
corroborates the information of a confidential
informant, "an entirely different case" is
presented. Gates , 462 U.S. at 241-42, 103 S.Ct.
2317. "[C]orroborat[ion] in significant part by
independent police investigation" may provide the
requisite substantial basis for a magistrate's
finding of probable cause, to which we will defer.
Stearn , 597 F.3d at 556, 557-58 ; see also Gates ,
462 U.S. at 246, 103 S.Ct. 2317.

Application and Resolution
Informants told law enforcement of several
interactions with Kelly related to drug trafficking.
In September 2013, an informant identified Kelly
in a photograph and stated that he had supplied the
informant with crack "on numerous occasions in
the recent past." Kelly App. 120, ¶ 18. Another
informant described a February 2014 encounter in
which the informant asked Kelly for crack to
distribute, and Kelly responded that he was going
to Atlantic City to get some more cocaine. Around

that same time, a third informant told a York
police detective that Hernandez was supplying
Kelly with large amounts of crack. These data
points suggest that Kelly was at least involved in
the sale and supply of crack cocaine shortly before
the warrant issued.

352

That suggestion was corroborated by independent
police work. The affidavit describes two incidents
that occurred in September 2013. York law
enforcement conducted a controlled delivery of
$120 to Kelly through a confidential source who
had been fronted cocaine. Six days later, law
enforcement oversaw a controlled buy and
delivery of crack involving Kelly. The source
received the drugs earlier in the day, and later
delivered $150 to Kelly "at 337 E. Philadelphia
Street." Kelly App. 129, ¶ 57. There was some
dispute over this wording at the suppression
hearing, and Kelly contends on appeal that it
incorrectly implies that the transaction took place
inside his residence, when the police report states
that the transaction occurred in front of the
building. For the reasons *352 given above,
however, that distinction is not decisive. The
incident at least indicates that in the months prior
to the warrant application, Kelly was conducting
drug transactions in close physical proximity to
his apartment.
The final relevant incident in the affidavit is the
most significant. In early March 2014, about two
weeks before Kelly was indicted, federal and local
law enforcement (including Special Agent Endy)
conducted a controlled purchase of crack from
Kelly through a cooperating source. Surveillance
documented Kelly leaving his East Philadelphia
Street apartment, driving to the location,
delivering (what was later confirmed to be) crack
to the source, and then returning immediately to
his apartment. "While we generally accept the
common sense proposition that drug dealers often
keep evidence of their transactions at home, that
inference is much stronger when the home is the

17

18a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

first place a drug dealer proceeds following such a
transaction." Burton , 288 F.3d at 104 (citation
omitted).
In sum, independent police work corroborated the
suggestion of multiple informants that Kelly was
not an occasional street-level dealer, but one who
consistently sold and supplied crack to others in
the months and weeks leading up to the warrant
application. Further, that police work provided
evidence placing Kelly's residence on East
Philadelphia Street in close spatial and temporal
proximity to his illegal activity. Magistrate Judge
Carlson therefore had ample basis to conclude
there was "a fair probability that contraband or
evidence of a crime w[ould] be found" at the
apartment. Gates , 462 U.S. at 238, 103 S.Ct.
2317.

2. Sistrunk
Our Court has "turn[ed] directly to the good faith
issue" when we concluded that a defendant's
probable-cause arguments did not "involve novel
questions of law whose resolution is necessary to
guide future action by law enforcement officers
and magistrates." United States v. Ninety-Two
Thousand Four Hundred Twenty-Two Dollars &
Fifty-Seven Cents , 307 F.3d 137, 145 (3d Cir.
2002) (alterations and internal quotation marks
omitted); see United States v. Leon , 468 U.S. 897,
925, 104 S.Ct. 3405, 82 L.Ed.2d 677 (1984). We
think such a move is appropriate here, and we will
affirm the denial of Sistrunk's motion on goodfaith grounds.

The Legal Standard
"To trigger the exclusionary rule, police conduct
must be sufficiently deliberate that exclusion can
meaningfully deter it, and sufficiently culpable
that such deterrence is worth the price paid by the
justice system." Herring v. United States , 555
U.S. 135, 144, 129 S.Ct. 695, 172 L.Ed.2d 496
(2009). One triggering circumstance is when "the
magistrate or judge in issuing a warrant was
misled by information in an affidavit that the
affiant knew was false or would have known was

353

false except for his reckless disregard of the truth."
Leon , 468 U.S. at 923, 104 S.Ct. 3405 (citing
Franks v. Delaware , 438 U.S. 154, 98 S.Ct. 2674,
57 L.Ed.2d 667 (1978) ). The Franks rule, we
have said, encompasses not only an affiant's
assertions, but also his omissions. See Wilson v.
Russo , 212 F.3d 781, 787 (3d Cir. 2000). Our
standard for assertions "is that ... ‘when viewing
all the evidence, the affiant must have entertained
serious doubts as to the truth of his statements or
had obvious reasons to doubt the accuracy of the
information he reported.’ " United States v. Brown
, 631 F.3d 638, 645 (3d Cir. 2011) (quoting Wilson
, 212 F.3d at 788 ). For omissions, by contrast, we
ask whether the "officer withholds a fact in his ken
that any reasonable person would have known ...
was the kind of thing the judge would wish to
know." *353 Wilson , 212 F.3d at 788 (alteration
and internal quotation marks omitted).
Although Wilson concerned an action under 42
U.S.C. § 1983, we have also applied it to resolve
appeals of judgments following Franks hearings.
See Brown , 631 F.3d at 648-49 ; United States v.
Yusuf , 461 F.3d 374, 383-84 (3d Cir. 2006). We
will extend this approach to cases where, as here,
Franks is raised in the good-faith context—where
the question is only whether the exclusionary rule
should apply. Yet our concern is with only the first
prong of the Franks test—that the affiant acted
deliberately to conceal the truth or with "reckless
disregard for the truth." Franks , 438 U.S. at 171,
98 S.Ct. 2674 ; see Leon , 468 U.S. at 923, 104
S.Ct. 3405. The inquiry at the second prong—that
the "false statements or omissions ... [be] material,
or necessary, to the finding of probable cause,"
Sherwood v. Mulvihill , 113 F.3d 396, 399 (3d Cir.
1997) —is unnecessary because the presumption
is that a Fourth Amendment violation has
occurred. See Herring , 555 U.S. at 145, 129 S.Ct.
695 ; Leon , 468 U.S. at 922 n.23, 104 S.Ct. 3405.
This accordingly demands adjusting the
application of the first prong when an affiant's
alleged omissions are at issue. In the § 1983
context, we have applied the first prong in light of

18

19a

United States v. Williams

the second, asking at the former whether the
omitted facts and circumstances were "relevant to
the existence of probable cause." Dempsey v.
Bucknell Univ. , 834 F.3d 457, 471 & n.9 (3d Cir.
2016). But, when good faith is concerned, the
proper question is not simply whether the
allegedly omitted information was known to the
affiant and relevant to the magistrate's probablecause inquiry, but also whether the deliberate or
reckless omission, if it occurred, was "so
objectively culpable as to require exclusion."
Herring , 555 U.S. at 146, 129 S.Ct. 695 ; see also
Dempsey , 834 F.3d at 473 n.13 (noting that
satisfaction of its standard does not necessarily
amount to a finding of bad faith).

Application and Resolution
Sistrunk identifies four instances where Special
Agent Endy allegedly omitted relevant facts,
thereby "misle[ading] the magistrate judge in
reckless disregard for the truth." Sistrunk Br. at 26.
First, the affidavit states that on July 8, 2007, "a
Southside gang member" was "fatally shot
multiple times." Sistrunk App. 170. A suspect
later made "a statement to police [that] implicated
Anthony Sistrunk as being ... with him during the
shooting." Id. Sistrunk contends that this statement
"fail[ed] to inform the ... magistrate that [the
suspect] exonerated [him] of any role in th[e]
shooting." Sistrunk Br. at 25.
Second, the affidavit relates that in April 2009,
Sistrunk fled a vehicle stop and was later arrested.
Police discovered two firearms in the vehicle.
Sistrunk was later "convicted of fleeing or
attempting to elude police." Sistrunk App. 170. He
now contends that this account omits the fact that
some firearms-related charges were withdrawn,
and that the jury acquitted him of other offenses.
Third, according to the affidavit, while Sistrunk
was in prison in September 2009, an ATF Special
Agent "obtained the inmate visitor list for Sistrunk
which indicated an association with multiple
Southside Gang members." Sistrunk App. 170.
Sistrunk argues that this information "failed to

974 F.3d 320 (3d Cir. 2020)

report that none of [his] co-defendants listed on
his prison visitor list actually visited [him]."
Sistrunk Br. at 26.

354

The fourth instance concerns the homicide of
Christen Latham in November 2012. The affidavit
states that "police identified ... Sistrunk as being
involved in an altercation with the victim prior to
his murder." Sistrunk App. 171. This account, *354
Sistrunk says, omitted that no one was criminally
charged for the homicide, that he was not
suspected for the crime, and that a witness did not
identify him as being present.
These alleged omissions do not amount to a
deliberate or reckless concealment of facts both
relevant to the magistrate's probable-cause inquiry
and evincing a culpability worth the costs of
suppression.18 The context is important. Special
Agent Endy filed his warrant application on
September 22, 2014—only five days after the
grand jury returned the second superseding
indictment. The application "clearly was
supported by much more than a ‘bare bones’
affidavit"—it "related the results of an extensive
investigation" that had already led to Sistrunk's
indictment on conspiracy and drug-trafficking
charges. Leon , 468 U.S. at 926, 104 S.Ct. 3405.
Moreover, none of the supposedly omitted facts
negates, or even substantially mitigates, the
intended implication of the related facts actually
adduced: that, as the affidavit asserted, Sistrunk
"ha[d] a long history of membership in the
Southside Gang and ha[d] consistently engaged in
or ha[d] been associated with criminal activity
including drug trafficking, firearm possession and
violence." Sistrunk App. 174. As a result, Special
Agent Endy's failure to include the facts does not
evince the level of culpability necessary to trigger
the exclusionary rule. The costs of suppression
here would far outweigh any concomitant
deterrence effect.
18 In Brown —which concerned Franks prong

one—we held that the standard of review
for assertions is clear error, reasoning that a
district court's requisite determination is

19

20a

United States v. Williams
"essentially factual." See 631 F.3d at 642,
644-45. The parties here have not briefed
us on the appropriate standard of review in
the omissions context, and we find it
unnecessary to resolve that question. Even
if our review was de novo, we would still
affirm the District Court's judgment.

B. Knowing
Testimony

Use

of

Perjured

During his testimony, Darvin Allen, one of the
Government's principal witnesses, described a
March 2009 episode of attack and retaliation
between members of South Side and Parkway.
Late one night at a club, Jahkeem Abney, a South
Side member, got into a verbal dispute with some
men from Parkway and was later shot in front of
the club. A few days later, Allen recounted,
several persons, including Atkinson, discussed
how to respond to the shooting. Allen then
testified that these same individuals drove up to
Parkway and "engaged in gunfire" with Skylar
Handy, one of the Parkway members at the club
the night Abney was shot. App. 1647. On crossexamination, however, Atkinson's counsel,
Yaninek, asked Allen if it would "make sense to
[him]" that Atkinson was incarcerated in March
2009. App. 1801. Allen answered affirmatively
and agreed that, as a result, Atkinson could not
have been involved in the retaliatory shooting.19

355

Later, during the defense portion of the trial,
Yaninek questioned Special Agent Endy, who had
prepared Allen for trial. Endy acknowledged that
his report of investigation included Allen's
identification of Atkinson at the retaliatory
shooting, and he accepted that this was
impossible, but he did not recall Allen testifying to
that effect.*355 Atkinson now asks for a new trial,
contending that the Government knew of Allen's
error and chose not to correct it. The Supreme
Court has long maintained that under the Due
Process Clauses, the prosecution may neither
present nor with-hold known false evidence, nor
"allow[ ] [such evidence] to go uncorrected when
it appears." Giglio v. United States , 405 U.S. 150,

974 F.3d 320 (3d Cir. 2020)

153, 92 S.Ct. 763, 31 L.Ed.2d 104 (1972) (quoting
Napue v. Illinois , 360 U.S. 264, 269, 79 S.Ct.
1173, 3 L.Ed.2d 1217 (1959) ) (citing Brady v.
Maryland , 373 U.S. 83, 87, 83 S.Ct. 1194, 10
L.Ed.2d 215 (1963) ; and Mooney v. Holohan ,
294 U.S. 103, 112, 55 S.Ct. 340, 79 L.Ed. 791
(1935) ). Yet such a violation, if established, does
not alone warrant a new trial; there must also be
prejudice (or materiality). See Giglio , 405 U.S. at
154, 92 S.Ct. 763 (citing Napue , 360 U.S. at 271,
79 S.Ct. 1173 ); see also Turner v. United States ,
––– U.S. ––––, 137 S. Ct. 1885, 1893, 198
L.Ed.2d 443 (2017). Accordingly, in cases of
uncorrected false testimony, our Court requires a
defendant to show four elements: (1) the witness
committed perjury; (2) the government knew or
should have known of the perjury; (3) the
testimony went uncorrected; and (4) there is a
reasonable likelihood the false testimony affected
the verdict. See Lambert v. Blackwell , 387 F.3d
210, 242 (3d Cir. 2004). Atkinson's challenge fails
at the first prong.
19 Yaninek

had

earlier,

at

a

sidebar

conversation during direct examination,
moved for a mistrial on the basis of the
inaccuracy. (Though he mistakenly said the
testimony placed Atkinson at the club in
possession of a gun, rather than simply at
the retaliation.) The District Court denied
the motion, declaring the issue "the proper
subject of cross-examination" and not
"grounds for a mistrial." App. 1664.
Atkinson does not appeal the District
Court's decision to allow the error to be
resolved on cross.

"A witness commits perjury if he or she ‘gives
false testimony concerning a material matter with
the willful intent to provide false testimony, rather
than as a result of confusion, mistake, or faulty
memory.’ " United States v. Hoffecker , 530 F.3d
137, 183 (3d Cir. 2008) (quoting United States v.
Dunnigan , 507 U.S. 87, 94, 113 S.Ct. 1111, 122
L.Ed.2d 445 (1993) ). Allen's testimony was not
limited to the night club incident; it ranged across
several years and recounted multiple shootings
20

21a

United States v. Williams

involving a number of different persons. That
Allen could not remember precisely who was
present at the March 2009 retaliatory shooting is
therefore unsurprising, and it does not in itself
demonstrate willful intent. Further, Atkinson
presents no evidence that Allen, at the time of his
direct testimony, knew that Atkinson was
incarcerated in March 2009. Compare Haskell v.
Superintendent Greene SCI , 866 F.3d 139, 143,
146 (3d Cir. 2017), with Hoffecker , 530 F.3d at
183. Indeed, on cross-examination, when asked
whether Atkinson was present at the retaliatory
shooting, Allen replied that he knew Atkinson
"committed a shooting at Skylar" Handy, but that
he didn't "know if it was March because I think
[Atkinson] went away." App. 1801. And when
Allen was affirmatively presented with the fact of
Atkinson's incarceration, he readily allowed it.
Given this testimony, we cannot but conclude that
Allen's initial identification of Atkinson was
simply the result of a "faulty memory." Hoffecker ,
530 F.3d at 183.

C. Admission
The final category of evidentiary challenges
concerns the admission and exclusion of evidence
at trial. On multiple occasions, it is argued, the
District Court ran afoul of the relevance
provisions of the Federal Rules of Evidence by
admitting evidence that either was unfairly
prejudicial in excess of its probative value or
served only to prove a Defendant's character.
Several Defendants also challenge the District
Court's admissions decisions regarding expert
testimony. We perceive no error in any of these
instances.

1. Relevance

356

We will disturb a district court's admission
decision only if the court abused its discretion—if
the decision "was arbitrary, fanciful or clearly
unreasonable," such that "no reasonable person
would *356 adopt the district court's view." United
States v. Starnes , 583 F.3d 196, 214 (3d Cir. 2009)
(internal citation omitted).

974 F.3d 320 (3d Cir. 2020)

Kelly's Nickname
The second superseding indictment included an
alias, or street name, for each defendant. The one
for Kelly was "Killer." App. 18. Early in the trial,
his attorney filed a motion in limine objecting to
the Government's use of the alias as unfairly
prejudicial because it suggested extrinsic evidence
that Kelly had committed murder. The
Government countered that certain witnesses
knew Kelly only through his alias, and that it
would use the nickname only to identify Kelly,
thus preventing jury confusion. The District Court
agreed with the Government. It also, at the
conclusion of the trial, included a limiting
instruction to the jury on this issue. Kelly now
seeks a new trial, arguing that the "probative
value" of the nickname evidence was
"substantially outweighed by a danger of ... unfair
prejudice." Fed. R. Evid. 403.
Several of our sister circuits have long maintained
that the prosecution's use of a defendant's alias in
an indictment or at trial is permissible where the
evidence is relevant—including for purposes of
identifying the defendant—and does not result in
unfair prejudice. See, e.g. , United States v. Doe ,
741 F.3d 217, 227 (1st Cir. 2013) ; United States v.
Farmer , 583 F.3d 131, 144-47 (2d Cir. 2009) ;
United States v. Emuegbunam , 268 F.3d 377, 394
(6th Cir. 2001) ; United States v. Delpit , 94 F.3d
1134, 1146 (8th Cir. 1996) ; United States v. Hines
, 955 F.2d 1449, 1454 (11th Cir. 1992) ; United
States v. Williams , 739 F.2d 297, 299-300 (7th
Cir. 1984). We agree, and adopt this standard here.
The District Court's judgment easily passes
muster. Allen knew Kelly only by his nickname,
and the District Court engaged in a reasonable
balancing of the testimony's relevance with the
nickname's potential to generate unfair prejudice.
Kelly points to no instance where either Allen or a
later witness in the same position was able to
identify him by anything else, nor does he indicate
any moment where the Government used the alias
to do anything other than identify him in a

21

22a

United States v. Williams

witness's testimony.20 Further, the District Court

22 Hernandez, Kelly, Sistrunk, and Eatmon all

fortified its Rule 403 balancing by including the
limiting instruction. We perceive no abuse of
discretion in this course of events.

argue the point in some form. Cruz,

20 Kelly

asserts

that

the

Government

"prompted" Cordaress Rogers to use the
nickname although Rogers clearly knew
Kelly's given name. Kelly Reply Br. at 4.
We do not read the testimony that way. It is
clear from the context that the Government
was seeking to elicit Kelly's surname, and
not his nickname.

The Latham Homicide
A few hours after midnight on November 17,
2012, a Harrisburg man named Christen Latham
died of a gunshot wound to the chest in the
parking lot outside a York restaurant known as
MoMo's. A verbal dispute inside the restaurant
spilled out into the parking lot, where Latham was
at first severely beaten by several men and then
fatally shot. Police later identified Hernandez,
Cruz, Kelly, and Schueg as either involved in or at
least present at the altercation,21 but no charges
were ever filed.
21 Rogers testified at trial that Sistrunk told

him that he also was present.

357

974 F.3d 320 (3d Cir. 2020)

The Government sought at trial to introduce
evidence suggesting the involvement of several
defendants in the altercation, including testimony
that Hernandez threw the first punch and
circumstantial evidence that Kelly was the one
who killed Latham. *357 Hernandez filed a joint
motion in limine to exclude all the evidence,
arguing that it was inadmissible under Federal
Rules of Evidence 402, 403, and 404(b). The
District Court denied the motion, ruling that the
evidence was intrinsic to the RICO-conspiracy
offense charged at Count I and that any danger of
unfair prejudice did not substantially outweigh the
evidence's probative value. Seven Defendants22
now contest one or both aspects of that ruling.

Villega, and Atkinson invoke Rule 28(i).

Intrinsic evidence need not be analyzed under
Rule 404(b) because it is not "[e]vidence of any
crime, wrong, or other act," Fed. R. Evid. 404(b)
(1), but rather "part and parcel of the charged
offense," United States v. Green , 617 F.3d 233,
245 (3d Cir. 2010). We have, however, limited
"the ‘intrinsic’ label [to] two narrow categories of
evidence": (1) where the uncharged conduct
"directly proves the charged offense"; and (2)
where it is "performed contemporaneously with
the charged crime" and "facilitate[s] the
commission of the charged crime." Id. at 248-49
(internal quotation marks omitted). This suggests
that the nature and scope of the evidence able to
be deemed intrinsic will vary with the charged
offense. In particular, where a criminal conspiracy
is charged, courts have afforded the prosecution
considerable leeway to present evidence, even of
unalleged acts within the indictment period, that
reflects a conspiratorial agreement or furtherance
of the conspiracy's illegal objectives. See, e.g. ,
United States v. Bush , 944 F.3d 189, 196-97 (4th
Cir. 2019) ; United States v. McGill , 815 F.3d 846,
879 (D.C. Cir. 2016) (per curiam); United States v.
Maxwell , 643 F.3d 1096, 1100 (8th Cir. 2011) ;
United States v. Parker , 553 F.3d 1309, 1314-15
(10th Cir. 2009) ; see also United States v. Gibbs ,
190 F.3d 188, 218 (3d Cir. 1999) (holding to the
same effect on plain-error review).
On this standard, the District Court here did not
abuse its discretion. As we detail more fully
below, both RICO and drug-trafficking conspiracy
are ultimately grounded in the general principles
of conspiracy law. The Latham evidence
implicates several of the Defendants and goes to
their willingness to engage in concerted illegal
action, amounting at its most serious to murder.
The argument that the evidence has nothing to do
with drug trafficking and the South Side-Parkway
rivalry is therefore inapposite. Conspiracy is a
single crime, even if it embraces a multitude of

22

23a

United States v. Williams

ends to be achieved over a period of time, by
means that are not themselves the subject of
agreement among the conspirators. See Frohwerk
v. United States , 249 U.S. 204, 209-10, 39 S.Ct.
249, 63 L.Ed. 561 (1919) ; infra , Section V.B.1.
In this light, a reasonable person could agree with
the District Court that the Latham evidence serves
directly to prove the existence of RICO conspiracy
among the Defendants.

358

The Defendants’ Rule 403 challenges also fail.
The fact that the evidence is intrinsic establishes
its probative nature, and as the District Court
pointed out, any evaluation of prejudicial effect
here must be considered in the context of the
totality of the evidence produced. "The jury," the
District Court observed, "has heard extensive
evidence of Defendants’ and their alleged coconspirators’ drug trafficking and gun possession,
gang membership, multiple shootings directed at
their rivals, shootouts on public streets involving
feuding rivals in which children are shot and even
killed, and evidence of multiple murders." *358
App. 15. We agree with this assessment, and
conclude that the District Court did not abuse its
discretion in balancing the probative value and
danger of prejudice as it did.

2. Expert Testimony
It is well established that a district judge has a
"general ‘gatekeeping’ obligation" with respect to
all testimony based on specialized knowledge of
some form. Kumho Tire Co. v. Carmichael , 526
U.S. 137, 141, 119 S.Ct. 1167, 143 L.Ed.2d 238
(1999). Under Federal Rule of Evidence 702, she
must ensure that such testimony is both reliable
and relevant, including under the standard laid
down in Rule 403. Daubert v. Merrell Dow
Pharms., Inc. , 509 U.S. 579, 594-95, 113 S.Ct.
2786, 125 L.Ed.2d 469 (1993). The judge must
also ensure that "an expert witness [does] not state
an opinion about whether [a] defendant did or did
not have a mental state or condition that
constitutes an element of the crime charged or of a
defense." Fed. R. Evid. 704(b). The Defendants
here challenge two of the District Court's

974 F.3d 320 (3d Cir. 2020)

decisions under these rules. We review those
decisions for abuse of discretion. United States v.
Davis , 726 F.3d 434, 446 (3d Cir. 2013).

Sistrunk's Tattoo
The second superseding indictment included
allegations that several South Side members were
affiliated with the Bloods. Prior to trial, the
Government announced its intention to have John
Havens, a Special Agent with the Federal Bureau
of Investigation, testify as an expert on the
Bloods, detailing among other things their
organization and symbols. Anticipating a
challenge to this proffer, the District Court held a
Daubert hearing. And when during trial the
motion to exclude came, the District Court ruled
in a memorandum opinion that most of it was
admissible, but it excluded (among other things)
testimony "as to any individual defendant except
in the abstract." D. Ct. Dkt. No. 860, at 11.
In support of its Blood-affiliation allegations, the
Government sought to introduce depictions of a
tattoo on Sistrunk's left bicep that read: "Live By
The 5, Die By The [symbol of a gun]." App. 5127;
Sistrunk App. 78. Special Agent Havens would
not be shown the tattoo, the Government assured,
but he would describe the significance of certain
symbols, such as the number five. Sistrunk's
attorney objected under Rule 403, arguing that this
singled out his client in contradiction of the
Daubert decision. The District Court admitted the
evidence, and Sistrunk now appeals.
We find no abuse of discretion in the District
Court's decision. Cooperating witnesses identified
Sistrunk as a Blood. Further, according to
testimony of Special Agent Endy, when federal
agents executed the search warrant of Sistrunk's
home, they found a letter signed, "Hat Boy, Low
Ridah, Brim, Kanye." App. 5016. Special Agent
Endy testified that "Kanye" was Sistrunk's alias
and that "Brim" was "a Blood set reference"—that
is, a reference to a particular subgroup of Bloods.
App. 5016. Sistrunk's argument that this testimony
and evidence was minimal when compared to the

23

24a

United States v. Williams

voluminous trial record is irrelevant. At the very
least, the testimony represents independent
support, apart from the tattoo and Special Agent
Havens's testimony, for the Government's theory
was Sistrunk was affiliated with the Bloods.

359

Nor did the District Court's decision to admit the
evidence unfairly single out Sistrunk in
contradiction of the Daubert ruling. Under that
decision, Special Agent Havens would not have
testified as to Sistrunk in particular; the tattoo
would have been introduced after Special Agent
Havens's testimony, and the jury would have been
allowed to infer, or not infer, a connection *359
between the tattoo and the significance of the
number five among certain Bloods. In fact, the
point arguably became explicit only through the
efforts of Sistrunk's attorney, who on crossexamination presented Special Agent Havens with
a picture of the tattoo. Given this course of events,
we are comfortable that a reasonable person could
adopt the District Court's view.

The De La Cruz Criteria
One of the defense's principal expert witnesses
was Dr. Jesse De La Cruz, a former gang member
who earned a doctoral degree studying the gangs
of Stockton, California. While conducting that
research, he developed a set of eight
characteristics common to the gang members he
studied. Upon completion of his degree, Dr. De La
Cruz began to testify as an expert witness,
determining whether a criminal defendant
possessed all or most of the characteristics. He
interviewed all twelve defendants and was
prepared to say whether they met his criteria.
The Government challenged that proposed
testimony under Rule 704(b). It argued that Dr. De
La Cruz could discuss the eight characteristics and
other matters, but that application of the
characteristics to the defendants would "go
directly to the intent of a particular person to be a
member of a gang." App. 5752. The District Court
agreed. It ruled that Dr. De La Cruz could provide
an "overview of gang activities" as a response to

974 F.3d 320 (3d Cir. 2020)

Special Agent Havens, but that he could not
discuss whether the defendants met the eight
criteria. App. 5754. That, the District Court said,
would amount to "testi[mony] as to a person's
mental state or condition," and the danger for
prejudice was substantial in comparison with its
limited probative value. App. 5754-55. Joined by
five others,23 Atkinson contends that the District
Court erred in excluding the testimony.
23 Cruz, Hernandez, Villega, Sistrunk, and

Eatmon.

This was not reversible error. It may be true that
Dr. De La Cruz's application of the eight criteria
would not have constituted "the last step in the
inferential process—a conclusion as to the
[defendants’] mental state." United States v.
Watson , 260 F.3d 301, 309 (3d Cir. 2001) (citation
omitted). As we describe in Section V.B.1 below, a
RICO enterprise may still exist even if it does not
amount to a gang, nor does gang membership in
itself prove RICO conspiracy. Yet that distinction
illustrates the problematic nature of the testimony.
The probative value was minimal unless one
associates gang membership with RICO
conspiracy, and so any testimony to that effect
would have served, as the District Court said, only
to "confuse and mislead the jury." App. 5755.
"The trial judge has broad discretion to admit or
exclude expert testimony, based upon whether it is
helpful to the trier of fact." Gibbs , 190 F.3d at
211. In this light, we cannot say the District Court
abused its discretion in excluding the testimony.

V.
SUFFICIENCY
EVIDENCE

OF

THE

We turn now to a series of interlocking challenges
to the sufficiency of the evidence supporting the
jury's verdicts. The operative indictment charged
all the Defendants in Counts I, II, and III: RICO
conspiracy, 18 U.S.C. § 1962(d) ; drug-trafficking
conspiracy, 21 U.S.C. § 846 ; and drug trafficking,
21 U.S.C. § 841(a), respectively. Seven
Defendants—Cruz, Hernandez, Villega, Kelly,
Atkinson, Sistrunk, and Eatmon—were convicted

24

25a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

on Count I, and each now contests his verdict.24
360

(3d Cir. 2019), clarified the effect of Alleyne v.
United States , 570 U.S. 99, 133 S.Ct. 2151, 186
L.Ed.2d 314 (2013), upon the distribution and
possession elements of § 841(a)(1). We held that
the provisions of § 841(b)(1)(A) and (b)(1)(B)
attach to each discrete act of distribution or
possession because they specify facts that increase
the statutory penalty, and so, under Alleyne ,
constitute an "element of a distinct and aggravated
crime," 570 U.S. at 116, 133 S.Ct. 2151, that must
be submitted to the jury, see Rowe , 919 F.3d at
759. As a result, the jury may not "combine the
amounts distributed or possessed" at discrete
instances to find the drug quantities specified in §
841(b)(1)(A) and (b)(1)(B). Id. at 761.

These *360 same seven, plus Rice and Schueg,
were convicted on Counts II and III.25 All nine had
drug quantities of 5 kilograms or more of powder
cocaine and 280 grams or more of crack cocaine
attributed to them, thus raising their mandatory
minimum term of imprisonment to 10 years and
the maximum term to life. See 21 U.S.C. § 841(b)
(1)(A). Six of these nine—Hernandez, Villega,
Rice, Kelly, Sistrunk, and Eatmon—now
challenge the verdicts on Counts II and III.26
24 Cruz, Hernandez, Sistrunk, and Eatmon all

argue the issue. Villega, Kelly, and
Atkinson raise it through Rule 28(i).
25 Williams was also convicted on Count III.

The parties agree that under Rowe the evidence
was insufficient to support the Count III verdicts
attributing to the Defendants the § 841(b)(1)(A)
quantities. The jury here was charged on an
aggregation theory of § 841(a)(1). The parties
contest, however, our standard of review of that
error. Further, two Defendants argue that Rowe
also affects the jury's drug-quantity attributions on
Count II—drug-trafficking conspiracy. We will
address each argument in turn. We conclude that
remedial action on the Count III error is warranted
only if the Defendants’ terms of imprisonment
would have been different absent the error.
Further, we conclude that an aggregation error did
occur on Count II, but only as it regards the
Defendants’ mandatory minimum terms of
imprisonment, and that the same standard of
review applies as for the Rowe error on Count III.

He appeals only his sentence, on grounds
other than drug quantity. See infra Section
VI.A.1.
26 On Count II, Hernandez, Villega, Rice, and

Sistrunk argue the issue in some form,
while Kelly and Eatmon raise it through
Rule 28(i). Hernandez, Villega, and Rice
also argue Count III; Kelly, Sistrunk, and
Eatmon all invoke Rule 28(i). In an
addendum to his opening brief, Hernandez
challenged his conviction on Count VI by
incorporating without explanation Villega's
argument as to Count II. This was an
improper adoption. At least in this context,
we fail to see how a Rule 28(i)
incorporation of a co-defendant's argument
on a different count is applicable, absent
elaboration that was not provided.

1. Standard of Review

For the reasons that follow, we will affirm the
judgments of conviction. We also shall affirm the
jury's Count II drug-quantity verdicts insofar as
they bear on the Defendants’ statutory maximum
terms of imprisonment.

A. The Rowe Error
We begin with the legal framework governing our
inquiry. Nearly three and a half years after trial,
and after all the Defendants had been sentenced,
our Court in United States v. Rowe , 919 F.3d 752

361

When a new rule is issued during the pendency of
a direct criminal appeal, it is the appellate court's
duty to "apply the law in effect at the time it
renders its decision." United States v. Johnson ,
899 F.3d 191, 199 (3d Cir. 2018) (quoting
Henderson v. United States , 568 U.S. 266, 271,
133 S.Ct. 1121, 185 L.Ed.2d 85 (2013) ). But that
does not necessarily determine *361 our standard

25

26a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

of review. Sistrunk contends that his Rule 29
motion at the close of the Government's case in
chief sufficiently preserved the issue. We disagree.

; United States v. Hosseini , 679 F.3d 544,
550 (7th Cir. 2012) ; United States v. Graf ,
610 F.3d 1148, 1166 (9th Cir. 2010) ;
United States v. Goode , 483 F.3d 676, 681

The standard for preserving an argument on a Rule
29 motion remains an open question in our circuit.
In United States v. Joseph , 730 F.3d 336 (3d Cir.
2013), we drew a distinction between "issues" and
"arguments," noting that the former "can
encompass more than one of the latter." Id. at 340.
We then held that, in the evidence-suppression
context, "for parties to preserve an argument for
appeal, they must have raised the same argument
in the District Court—merely raising an issue that
encompasses the appellate argument" results in
waiver of the argument. Id. at 337 (emphases
omitted). The Government invites us to apply this
standard here.

(10th Cir. 2007) ; United States v. Spinner ,
152 F.3d 950, 955 (D.C. Cir. 1998).

We think uniformity in federal criminal practice
has value, and so we decline to import Joseph
wholesale here. It is unnecessary, though, to
diverge too far from Joseph and hold that a
broadly stated Rule 29 motion preserves all
arguments bearing on the sufficiency of the
evidence. It is enough to accept here that when a
Rule 29 motion raises specific grounds, or
arguments (in the Joseph sense), all such
arguments not raised are unpreserved on appeal.
Sistrunk's motion raised a narrow factual argument
regarding the testimony of a witness. That is a
specific ground distinct from the Rowe argument,
rendering the latter unpreserved. Our principal
divergence from Joseph comes in how to treat the
error: we will review for plain error.29

Nearly all of our sister circuits, though, have
settled on a somewhat different standard. One has
said that when a defendant makes "general
motions pursuant to Rule 29 for acquittal,
generally arguing that the government presented
insufficient evidence," he has "preserved his
sufficiency claims for appeal." United States v.
Hoy , 137 F.3d 726, 729 (2d Cir. 1998). Others
have maintained that "[w]hen a defendant raises
specific grounds in a Rule 29 motion, grounds that
are not specifically raised" are subject to some
form of plain-error review, if not waived, on
appeal. United States v. Chong Lam , 677 F.3d
190, 200 (4th Cir. 2012) (emphasis omitted).27 A

29 The circuits are more divided on this

question than on the preservation standard
itself. One accepts full waiver, Porter , 886
F.3d at 566 ; two review for "a manifest
miscarriage of justice," Chong Lam , 677
F.3d at 200 n.10 ; Graf , 610 F.3d at 1166 ;
one looks for "clear and gross injustice,"
Marston , 694 F.3d at 134 ; and five review
for plain error, Samuels , 874 F.3d at 1036 ;
Baston , 818 F.3d at 664 ; Hosseini , 679

plurality of circuits has explicitly adopted both of
these standards.28 Only the Fifth Circuit applies a

F.3d at 550 ; Goode , 483 F.3d at 681 ;

Joseph -like standard in the Rule 29 context. See
United States v. McDowell , 498 F.3d 308, 312-13
(5th Cir. 2007).

the past reviewed unpreserved sufficiency

Spinner , 152 F.3d at 955. Our Court has in
arguments for plain error. See United States
v. Husmann , 765 F.3d 169, 172, 173 n.2
(3d Cir. 2014) ; United States v. Sussman ,

27 See also United States v. Samuels , 874

709 F.3d 155, 162 (3d Cir. 2013). Given

F.3d 1032, 1036 (8th Cir. 2017) ; United

this practice, and the nature of the error

States v. Baston , 818 F.3d 651, 663-64

here, we think plain-error review is

(11th Cir. 2016).

appropriate.

28 See United States v. Porter , 886 F.3d 562,

566 (6th Cir. 2018) ; United States v.
Marston , 694 F.3d 131, 134 (1st Cir. 2012)

362

The parties agree that Olano ’s first and second
prongs are satisfied, and so *362 our focus is on
the substantial-rights inquiry. In Vazquez , we

26

27a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

confronted a § 841 violation of Apprendi v. New
Jersey , 530 U.S. 466, 120 S.Ct. 2348, 147
L.Ed.2d 435 (2000) : "the drug quantity [wa]s not
found by a jury beyond a reasonable doubt and the
defendant's sentence under § 841 exceed[ed] 20
years." 271 F.3d at 98. Because this violation
involved both a sentencing error and a trial error,
our substantial-rights inquiry asked whether "the
sentence would have been the same absent the trial
error." Id. at 101 (emphases omitted).

I.D. If the evidence is sufficient to support the
jury's drug-quantity attributions on Count II—and,
in particular, the resulting maximum term of
imprisonment under § 841(b)(1)(A)32 —then

A similar approach is appropriate here. A Rowe
error's principal effect goes to the sentence
imposed. The "aggravated crime," Alleyne , 570
U.S. at 116, 133 S.Ct. 2151, charged in Count III
encompasses the "lesser included offense" of a "
[v]iolation of § 841(a)(1)," Burrage v. United
States , 571 U.S. 204, 210 n.3, 134 S.Ct. 881, 187
L.Ed.2d 715 (2014). The default penalty for that
offense is specified in § 841(b)(1)(C). As a result,
any prejudice arising from the Rowe error
concerns the length of the Defendants’
incarceration rather than the integrity of the
general verdicts against them.30 And we may

on a racketeering activity for which the

vacating the drug-quantity verdicts on Count III
would not result in reduced sentences. It would,
therefore, be unnecessary for us to correct the
Rowe error.
31 RICO

maximum

at

20

years’

penalty

includes

life

imprisonment." 18 U.S.C. § 1963(a). Here,
the

alleged

predicate

offenses

were

violations of § 841(a)(1) at the § 841(b)(1)
(A) quantities—for which the maximum
penalty is life imprisonment. The conceded
Rowe error therefore necessarily infects the
validity of the sentences on Count I.
32 The statutory maximum term under §

841(b)(1)(C) is still greater than § 841(b)
(1)(A) ’s mandatory minimum, absent
other aggravating facts—such as a prior
serious drug felony conviction—that would
apply anyway under (b)(1)(C).

2. Section 846 Conspiracy and Drug
Quantity: The Legal Standard

30 No Defendant challenges his conviction of

the lesser included offense of simple
distribution. The Rowe error therefore did
not affect the Defendants’ substantial rights
regarding the $100 assessment for felony
convictions pursuant to 18 U.S.C. §
3013(a)(2)(A). See United States v. Tann ,
577 F.3d 533, 539-40 (3d Cir. 2009).

noted, the six challengers to Count III are the same
six who contest their convictions on Count II.
These six were sentenced to concurrent terms of
imprisonment on both counts. See supra Section

violations

imprisonment unless "the violation is based

assume that any additional day an error causes a
person to spend in prison affects his substantial
rights. See, e.g. , Molina-Martinez , 136 S. Ct. at
1345.

To determine whether the Defendants’ sentences
would have been different absent the Rowe error,
we may look in the first instance to the evidence
supporting the verdicts on Count II—drugtrafficking conspiracy under 21 U.S.C. § 846.31 As

caps

363

Hernandez and Sistrunk contend that Rowe and
Alleyne also affect our evaluation of the evidence
supporting the drug-quantity verdicts on Count II.
In particular, they argue that those decisions either
transformed drug quantity into a mens rea element
of § 846, or barred the aggregation of drug
quantity for sentencing purposes under § 846. We
reject the first argument, but qualifiedly agree on
the second. We hold that a jury, in determining
drug quantity for purposes of the mandatory
minimum term of imprisonment, may attribute to
a defendant only those quantities involved in
violations of *363 § 841(a) that were within the
scope of the conspiracy, or in furtherance of it, and
were reasonably foreseeable to the defendant as a
natural consequence of his unlawful agreement.

27

28a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

Mental Element
Section 846 does not demand that a person
conspire to distribute a particular quantity of a
controlled substance. To see why, we must begin
with the underlying statute. Under § 841(a)(1), "it
shall be unlawful for any person knowingly or
intentionally ... to ... distribute, or ... possess with
intent to ... distribute, ... a controlled substance."
This is the core offense—the interdiction backed
by the state's claim to a monopoly of legitimate
physical violence. Section 841(b) makes this clear:
it describes the penalties to be imposed upon "any
person who violates subsection (a) of this section."
21 U.S.C. § 841(b). Properly speaking, then, a
person who engages in drug trafficking violates §
841(a), and the penalty for that violation is to be
determined according to § 841(b), which provides
both a default penalty and heightened penalties
based on certain additional factual findings. As a
result, it is unnecessary for the jury to find that the
defendant knew the quantity of the controlled
substance he was distributing, or possessing with
intent to distribute, at a given time. It is enough
that the knowing or intentional distribution or
possession occurred; the quantity is a factual
finding that goes to the sentence to be imposed.
See Burrage , 571 U.S. at 210-11, 134 S.Ct. 881
(interpreting § 841(b)(1)(C) ’s "results from"
enhancement as "impos[ing] ... a requirement of
actual causality," rather than legal causality, and
thus as requiring a factual finding of but-for
causation); United States v. Dado , 759 F.3d 550,
570 (6th Cir. 2014).
This interpretation is consistent with Apprendi and
Alleyne . The Court in those cases operated on an
expansive definition of "crime" according to its
"invariable linkage" with punishment, Apprendi ,
530 U.S. at 478, 120 S.Ct. 2348, rather than
specifically the conduct and mental state deemed
illegal. Yet the decisions did not fundamentally
affect legislative authority to define a crime's
elements. In Apprendi , for example, the Court
noted that traditionally, an indictment under a
criminal statute that "annexe[d] a higher degree of

punishment to a common-law felony, if committed
under particular circumstances," needed to charge
both "the circumstances of the crime and the intent
of the defendant at the time of commission," and
"the circumstances mandating [the higher]
punishment." Id. at 480, 120 S.Ct. 2348 (quoting
John Archbold, Pleading and Evidence in
Criminal Cases 51 (15th ed. 1862)). Both were
"essential elements to be alleged," id. , but a
prosecutor could fail to prove the latter and still
prove that the felony had been committed, id. at
480-81, 120 S.Ct. 2348 (citing Archbold, supra ,
at 188). As a result, although bundled in the
broader concept of an "aggravated" crime, the
statutory definitions of "[t]he core crime" and the
"triggering" fact remain the same. Alleyne , 570
U.S. at 113, 133 S.Ct. 2151. In the context of §
841(a) and (b), that means the defendant need not
consciously cognize the amount he is distributing
in order to violate the law.

364

The same logic applies to drug-trafficking
conspiracies under § 846. The statute provides:
"Any person who ... conspires to commit any
offense defined in this subchapter shall be subject
to the same penalties as those prescribed for the
offense, the commission of which was the object
of the ... conspiracy." In the case of a drugtrafficking conspiracy, the "offense" conspired is a
violation of § 841(a), and the penalty for this
distinct crime—conspiracy to violate § 841(a) —is
provided in § 841(b). For the same reason, then,
that drug *364 quantity is not a mens rea element
under § 841(a), it is not one under § 846.

Drug-Quantity Aggregation
The Defendants alternatively argue that just as
Rowe and Alleyne bar the aggregation of drug
quantity for discrete violations of § 841(a)(1), so
they also bar aggregation for violations of § 846.
The Government responds by referring to United
States v. Gori , 324 F.3d 234 (3d Cir. 2003), for
the proposition that the penalty for drugtrafficking conspiracy under § 846 can be
calculated according to the total amount of drugs
in the conspiracy. We agree with neither side fully.
28

29a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

When determining drug quantity for purposes of a
defendant's mandatory minimum sentence, a jury
must follow the ordinary limitations on coconspirator liability. Because that principle was
not followed here, we conclude that an error
occurred on the Count II drug-quantity verdicts.
In Gori , we recognized that the general principles
of conspiracy law may influence a defendant's
sentencing exposure under § 846. When Congress
borrows a legal term of art in a criminal law, it is
presumed to "know[ ] and adopt[ ] the cluster of
ideas that were attached" to that term and "the
meaning [the term's] use will convey to the
judicial mind," absent provision to the contrary.
Morissette v. United States , 342 U.S. 246, 263, 72
S.Ct. 240, 96 L.Ed. 288 (1952). Section 846 is a
law of this type, and so our interpretation of it
ought, where relevant, to have reference to the
"well-established principles," Salinas v. United
States , 522 U.S. 52, 63, 118 S.Ct. 469, 139
L.Ed.2d 352 (1997), of conspiracy law. See, e.g. ,
Smith v. United States , 568 U.S. 106, 110-11, 133
S.Ct. 714, 184 L.Ed.2d 570 (2013).
It is elementary that the "agreement to commit an
offense does not become several conspiracies
because it continues over a period of time."
Braverman v. United States , 317 U.S. 49, 52, 63
S.Ct. 99, 87 L.Ed. 23 (1942). "[A] single
continuing agreement to commit several offenses"
is equally a violation of the relevant conspiracy
statute as a one-off agreement to commit a single
offense. Id. ; see also United States v. Kissel , 218
U.S. 601, 607, 31 S.Ct. 124, 54 L.Ed. 1168 (1910).
Gori simply applied this principle in the context of
a § 846 drug-trafficking conspiracy: one can
conspire to violate § 841(a) multiple times, and
this may constitute a single violation of § 846. 324
F.3d at 237. Moreover, because § 846 ties its
penalty to that of the substantive offense, and
because, by our foregoing logic, it is § 841(a)
specifically that is conspired to be violated, Gori
’s interpretation of how to penalize a multi-offense
drug-trafficking conspiracy remains good law.

365

Yet, importantly, Gori concerned the aggregation
of drug quantities arising from the offenses of the
same defendant . See 324 F.3d at 236. Equally
central to conspiracy law is the concept of coconspirator liability. "It has always been, ... and is
still, the law that, after prima facie evidence of an
unlawful combination has been introduced, the act
of any one of the co-conspirators in furtherance of
such combination may be properly given in
evidence against all." Bannon v. United States ,
156 U.S. 464, 469, 15 S.Ct. 467, 39 L.Ed. 494
(1895). The "unlawful agreement contemplated
precisely what was [to be] done," it "was formed
for the purpose" of committing a crime or crimes,
and so the "act of one partner in crime is
attributable to all." Pinkerton v. United States ,
328 U.S. 640, 647, 66 S.Ct. 1180, 90 L.Ed. 1489
(1946). Although thus expanding liability, this
logic contains its own limiting principle: the act
must be "done in furtherance of the conspiracy," or
"fall within the scope of the unlawful project." Id.
at 647-48, 66 S.Ct. 1180. A "ramification[ ] of the
plan *365 which could not be reasonably foreseen
as a necessary or natural consequence of the
unlawful agreement" does not bind the coconspirator. Id. at 648, 66 S.Ct. 1180. "Nobody is
liable in conspiracy except for the fair import of
the concerted purpose or agreement as he
understands it." United States v. Peoni , 100 F.2d
401, 403 (2d Cir. 1938) (L. Hand, J.).
These principles inform the extent of a defendant's
sentencing exposure under § 846. In a postApprendi case, we held that in prosecutions of
multi-person drug-trafficking conspiracies, "[t]he
[jury's] finding of drug quantity for purposes of
determining the statutory maximum is ... to be an
offense-specific, not a defendant-specific,
determination." United States v. Phillips , 349 F.3d
138, 143 (3d Cir. 2003), vacated on other grounds
sub nom. Barbour v. United States , 543 U.S.
1102, 125 S.Ct. 992, 160 L.Ed.2d 1012 (2005). In
other words, the jury finds only the quantity
attributable to "the conspiracy as a whole," and
then the sentencing judge determines "the drug

29

30a

United States v. Williams

quantity attributable to each defendant and
sentence[s] him or her accordingly, provided that
the sentence does not exceed the applicable
statutory maximum." Id. "Accomplice attribution,"
we recognized long before Phillips , "often results
in a dramatic increase in the amount of drugs for
which the defendant is held accountable, which
translates directly into a dramatic increase in the
sentence." United States v. Collado , 975 F.2d 985,
995 (3d Cir. 1992). And so, "at sentencing, it is
essential for courts to conduct ‘a searching and
individualized inquiry into the circumstances
surrounding each defendant's involvement in a
conspiracy to ensure that the defendant's sentence
accurately reflects his or her role.’ " United States
v. Metro , 882 F.3d 431, 439 (3d Cir. 2018)
(alterations omitted) (quoting Collado , 975 F.2d
at 995 ).
Phillips ’s holding did not apply to mandatory
minimum sentences. We adopted in that case the
reasoning of three of our sister circuits, see
Phillips , 349 F.3d at 141-42 (citing United States
v. Knight , 342 F.3d 697, 710-11 (7th Cir. 2003) ;
United States v. Turner , 319 F.3d 716, 722-23 (5th
Cir. 2003) ; and Derman v. United States , 298
F.3d 34, 42-43 (1st Cir. 2002) ), and those courts
do not employ a conspiracy-wide approach in the
context of mandatory minimums, see United
States v. Haines , 803 F.3d 713, 741-42 & n.9 (5th
Cir. 2015) ; United States v. Colón-Solís , 354 F.3d
101, 103 (1st Cir. 2004) ; Knight , 342 F.3d at 711.
Phillips said nothing to the contrary, consistent
with Collado : the jury sets the maximum
according to the total amount of drugs in the
conspiracy, and the sentencing judge conducts an
individualized inquiry to determine the penalty for
each co-conspirator.
Alleyne alters this regime. Since that decision,
several circuits—including the First and the Fifth
—have held that the jury, in determining (as
Alleyne requires) drug quantity for purposes of the
mandatory minimum, may attribute to a defendant
only that "quantity which was within the scope of
the agreement and reasonably foreseeable to him."

974 F.3d 320 (3d Cir. 2020)

United States v. Dewberry , 790 F.3d 1022, 1030
(10th Cir. 2015) (internal quotation marks
omitted); see also United States v. Stoddard , 892
F.3d 1203, 1221 (D.C. Cir. 2018) ; Haines , 803
F.3d at 740 ; United States v. Rangel , 781 F.3d
736, 742-43 (4th Cir. 2015) ; United States v.
Pizarro , 772 F.3d 284, 292-93 (1st Cir. 2014).33
We adopt here a similar, though not the same,
approach. The jury, when determining drug
quantity for purposes of the mandatory minimum,
may attribute to a defendant only those quantities
involved in violations of § 841(a) that were within
the scope of, or in furtherance of, the conspiracy
and were reasonably foreseeable to the defendant
as a consequence of the unlawful agreement.34 We

366 *366

take this approach for two reasons.
33 The

Sixth

Circuit

has

adopted

the

conspiracy-wide approach for statutory
minimum and maximum sentences. See
United States v. Gibson , No. 15-6122,
2016 WL 6839156, at *1 (6th Cir. Nov. 21,
2016) (citing United States v. Robinson ,
547 F.3d 632 (6th Cir. 2008) ), aff'd by an
equally divided court , 874 F.3d 544 (6th
Cir. 2017) (mem).
34 The

quantity

of

drugs

for

which

conspirators can be held accountable is not
limited to amounts distributed or possessed
with intent to distribute. It also includes
amounts

that

distribute

or

conspirators
possess

agreed

to

intent

to

with

distribute, even if those amounts were not
actually distributed or possessed.

First , it follows from the basic principles of our
precedent. In Rowe , we acknowledged that
because the drug quantities specified in § 841(b)
(1)(A) and (b)(1)(B) increase the mandatory
minimum, they constitute facts that must be
submitted to the jury for each violation of § 841(a)
(1). Gori is consistent with Rowe because
conspiracy law encompasses a continuing
agreement to commit several offenses, and so the
penalty for a violation of § 846 is appropriately
calculated according to the aggregate drug

30

31a

United States v. Williams

quantity involved in a defendant's continuous
execution of the unlawful agreement. Under
Alleyne , the jury must determine this quantity to
set the mandatory minimum. Our holding here
follows from the same rationale, applying to this
landscape another dimension of conspiracy law—
co-conspirator liability—that must be considered
by the jury. Where Gori held that the drug
quantities involved in a single conspirator's
multiple violations of § 841(a) may be aggregated
for purposes of his sentence, we hold that the
quantities involved in the § 841(a) violations of
multiple conspirators may be aggregated for
determining the mandatory minimum of any one
conspirator, subject to the ordinary limitations on
co-conspirator liability.35

974 F.3d 320 (3d Cir. 2020)

367

were reasonably foreseeable in connection with
the criminal activity the defendant agreed to
undertake." 975 F.2d at 995 (internal quotation
marks omitted) (emphasis added). But as we have
said, drug quantity is not a mens rea element
under § 846, and co-conspirator liability extends
to acts or omissions that are reasonably
foreseeable as a consequence of the unlawful
agreement. Accordingly, we think the proper
inquiry is to determine the violations of § 841(a)
within the scope of the conspiracy, or in
furtherance of it, that were reasonably foreseeable
to the defendant as a natural result of his unlawful
agreement. All drug quantities *367 involved
therein are attributable to the defendant.36
36 Collado ’s specification that drug quantity

35 Pinkerton concerned liability for a distinct

itself needed to be reasonably foreseeable

substantive offense committed by a co-

was based on an application note of

conspirator

the

U.S.S.G. § 1B1.3. And "[w]e have ...

conspiracy, rather than liability for the

explained that the conduct a defendant is

conspiracy offense itself. However, its

typically held responsible for under the

holding was simply an extension of an

guidelines

already well-established principle that the

conspiracy law." Metro , 882 F.3d at 439

act of a co-conspirator in furtherance of the

(internal

scheme is the act of all for purposes of

Moreover,

conspiracy liability. See Pinkerton , 328

Commission

U.S. at 647, 66 S.Ct. 1180. Our holding

application note so that it now reads: "With

here applies that idea to the § 846 drug-

respect to offenses involving contraband

trafficking context. Further, we think

(including

Pinkerton ’s limitations on co-conspirator

defendant is accountable [for] ... all

liability apply to liability not only for a co-

quantities of contraband that were involved

conspirator's substantive offense, but also

in transactions carried out by other

under the relevant conspiracy statute. See,

participants, if those transactions ... were

e.g. , Peoni , 100 F.2d at 403.

reasonably foreseeable in connection with

in

furtherance

of

Second , the approach is most consistent with our
pre- Alleyne regime. Phillips ensured that the jury
would set the maximum term a defendant could
spend in prison, leaving it to the judge to
determine each co-conspirator's individual
sentencing exposure under § 841(b). Here we
transfer some of that latter inquiry to the jury, as
Alleyne requires. Yet in doing so, we must
necessarily alter it. Under Collado , the judge at
sentencing must "consider whether the amounts
distributed by the defendant's co-conspirators ...

is

not

quotation
in

coextensive
marks

2015,

the

amended

controlled

the

with

omitted).
Sentencing
relevant

substances),

the

that criminal activity." U.S.S.G. § 1B1.3
cmt. n.3 (emphasis added).

We thus agree with Hernandez and Sistrunk that
an error occurred as to Count II. The jury rendered
its verdicts by considering only the amount of
drugs involved in the conspiracy as a whole. But
for the same reasons given above with respect to
the Rowe error on Count III—the drug-trafficking
count—this argument was not preserved in the
Defendants’ Rule 29 motions, and so our review is
for plain error. We may assume that Olano ’s

31

32a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

second prong is satisfied. On the third prong, our
logic with respect to the Rowe error applies
similarly here. The error goes to the sentences
imposed, and because (as we hold below) the
Count II verdicts otherwise stand, we may
determine whether there is "a reasonable
probability that, but for the error claimed," the
Defendants’ terms of imprisonment would have
been different. Dominguez Benitez , 542 U.S. at
82, 124 S.Ct. 2333 (alteration and citation
omitted).37 Further, given our conclusions in Part

substantive offense. See supra note 31.

1. The Elements of the Offense
Conspiracy Generally

VI below, with one exception,38 the Defendants’
sentences include incarceration in excess of §
841(b)(1)(A) ’s mandatory minimum. The error,
then, did not affect their substantial rights.
37 Our

discussion

above

of

the

$100

assessment for felony convictions, see
supra note 30, thus also applies here.
38 Hernandez. See infra Section VI.A.2.

B. Count I: RICO Conspiracy
Having clarified the legal framework of our
inquiry, we now turn to the sufficiency of the
evidence on Counts I and II—RICO conspiracy
and drug-trafficking conspiracy. Both offenses
may arise from the same set of facts because they
follow from the general principles of conspiracy
law. Here, the operative indictment incorporated
its allegations at Count I as the basis for its charge
at Count II. And, as we shall see, the evidence
supporting the Count I convictions overlaps with
that supporting the convictions on Count II.39 We
hold that a rational juror could have concluded
that each of the Defendants convicted on Count I
was guilty as charged.40
39 Of the six Defendants raising a sufficiency

challenge on Count II, only Rice was not
convicted on Count I. We address the
evidence

supporting

his

conspiracy

conviction in Section V.C.2 below.
40 We consider here only the sufficiency of

the evidence supporting the jury's general
verdicts on Count I—commission of the

368

The fountainhead of any criminal conspiracy is the
agreement: when "two or more ... confederate and
combine together, by concerted means, to do that
which is unlawful or criminal." Callan v. Wilson ,
127 U.S. 540, 555, 8 S.Ct. 1301, 32 L.Ed. 223
(1888). Under both the RICO- and the drugtrafficking-conspiracy statutes, 18 U.S.C. §
1962(d) and 21 U.S.C. § 846, "the Government
must prove beyond *368 a reasonable doubt that
two or more people agreed to commit a crime
covered by the specific conspiracy statute (that a
conspiracy existed) and that the defendant
knowingly and willfully participated in the
agreement (that he was a member of the
conspiracy)." Smith , 568 U.S. at 110, 133 S.Ct.
714. The statutes are therefore "even more
comprehensive than the general conspiracy
offense in [ 18 U.S.C.] § 371" because they do not
require an overt act. Salinas , 522 U.S. at 63, 118
S.Ct. 469 ; see also United States v. Shabani , 513
U.S. 10, 17, 115 S.Ct. 382, 130 L.Ed.2d 225
(1994).
Further, the RICO or drug-trafficking conspiracy
may continue over time and embrace a multitude
of objects. Smith , 568 U.S. at 111, 133 S.Ct. 714.
It may exist even if an individual conspirator
"does not agree to commit or facilitate each and
every part of the" contemplated crime or crimes.
Salinas , 522 U.S. at 63, 118 S.Ct. 469. Nor even
must the conspiracy actually achieve any or all of
its criminal ends. United States v. Rabinowich ,
238 U.S. 78, 86, 35 S.Ct. 682, 59 L.Ed. 1211
(1915). It is enough that the conspirator "intend[s]
to further an endeavor which, if completed, would
satisfy all of the elements of a substantive criminal
offense." Salinas , 522 U.S. at 65, 118 S.Ct. 469.
Thus involved, each conspirator is subject to the
ordinary principles of co-conspirator liability.
Smith , 568 U.S. at 111, 133 S.Ct. 714 (citing
Pinkerton , 328 U.S. at 646, 66 S.Ct. 1180 ). And
32

33a

United States v. Williams

he continues to be liable "up to the time of
abandonment or success." Kissel , 218 U.S. at 608,
31 S.Ct. 124. Indeed, "a defendant's membership
in the conspiracy, and his responsibility for its
acts, endures even if he is entirely inactive after
joining it." Smith , 568 U.S. at 114, 133 S.Ct. 714 ;
see also Callanan v. United States , 364 U.S. 587,
593, 81 S.Ct. 321, 5 L.Ed.2d 312 (1961) ("Group
association for criminal purposes often, if not
normally, makes possible the attainment of ends
more complex than those which one criminal
could accomplish."). Once the prosecution has
proved both the existence of a conspiracy across a
period of time and the defendant's participation in
that conspiracy, the burden falls on the defendant
to establish his withdrawal prior to the completion
of the period. Smith , 568 U.S. at 113, 133 S.Ct.
714. If he does not show "some [affirmative] act
to disavow or defeat the purpose" of the
conspiracy, then he must "incur the guilt"
attendant upon its continuance. Hyde v. United
States , 225 U.S. 347, 369-70, 32 S.Ct. 793, 56
L.Ed. 1114 (1912).
Section 1962(c)
Seven Defendants were convicted of conspiracy to
violate 18 U.S.C. § 1962(c). That provision
declares in relevant part:
It shall be unlawful for any person ...
associated with any enterprise engaged in,
or the activities of which affect, interstate
... commerce, to conduct or participate,
directly or indirectly, in the conduct of
such enterprise's affairs through a pattern
of racketeering activity ....
For our purposes here, the final two elements are
the most significant: participation in (1) the
conduct of an enterprise (2) through a pattern of
racketeering activity.
RICO defines an "enterprise" to "include[ ] any
individual, partnership, corporation, association,
or other legal entity, and any union or group of
individuals associated in fact although not a legal

974 F.3d 320 (3d Cir. 2020)

369

entity." 18 U.S.C. § 1961(4). In the present cases,
the enterprise was said to be the "Southside
Gang," which was "a group of individuals
associated in fact." App. 25. The jury was charged
and returned its verdicts on this theory. Despite
considerable dispute at trial and in the briefs
before us, the term "gang" has no talismanic
significance in the RICO context. An associationin-fact *369 enterprise, the Supreme Court has
said, is "an entity, for present purposes a group of
persons associated together for a common purpose
of engaging in a course of conduct." United States
v. Turkette , 452 U.S. 576, 583, 101 S.Ct. 2524, 69
L.Ed.2d 246 (1981). This definition entails "at
least three structural features: a purpose,
relationships among those associated with the
enterprise, and longevity sufficient to permit these
associates to pursue the enterprise's purpose."
Boyle v. United States , 556 U.S. 938, 946, 129
S.Ct. 2237, 173 L.Ed.2d 1265 (2009). Beyond this
the proof need not go: "an association-in-fact
enterprise is simply a continuing unit that
functions with a common purpose." Id. at 948, 129
S.Ct. 2237.
Next, "racketeering activity" is said to "mean[ ]"
certain criminal acts defined by statute, including
"any offense involving ... the felonious
manufacture, importation, receiving, concealment,
buying, selling, or otherwise dealing in a
controlled substance." 18 U.S.C. § 1961(1)(D). A
"pattern of racketeering activity" in turn "requires
at least two acts of [such] activity, ... the last of
which occurred within ten years (excluding any
period of imprisonment) after the commission of a
prior act of racketeering activity." Id. § 1961(5) ;
see H.J. Inc. v. Nw. Bell Tel. Co. , 492 U.S. 229,
239, 109 S.Ct. 2893, 106 L.Ed.2d 195 (1989) ("
[A] ... prosecutor must show that the racketeering
predicates are related, and that they amount to or
pose a threat of continued criminal activity."
(emphasis in original)). Although the evidence
establishing an enterprise and a pattern of
racketeering activity "may in particular cases

33

34a

United States v. Williams

coalesce," the two elements themselves remain "at
all times" distinct. Turkette , 452 U.S. at 583, 101
S.Ct. 2524.
Section 1962(d)
As relevant here, to be liable for RICO conspiracy
under § 1962(d), a defendant must "intend to
further an endeavor which, if completed, would
satisfy all of the elements of [ § 1962(c) ]."
Salinas , 522 U.S. at 65, 118 S.Ct. 469. That
endeavor may be both the enterprise and the
conspiracy, for the two crimes can be "coincident
in their factual circumstances." Id. It is a "person,"
not the enterprise itself, who violates § 1962(c) by
"conduct[ing] or participat[ing]" in the enterprise's
affairs "through a pattern of racketeering activity."
18 U.S.C. § 1962(c) ; see United States v. Bergrin
, 650 F.3d 257, 267 (3d Cir. 2011) (citing H.J. Inc.
, 492 U.S. at 244, 109 S.Ct. 2893 ). The nature of
the liability therefore depends upon the
circumstances. A defendant may be a party to the
enterprise, not violate § 1962(c), but still be liable
under § 1962(d). He need not "commit or agree to
commit the two or more predicate acts requisite to
[ § 1962(c) ]." Salinas , 522 U.S. at 65, 118 S.Ct.
469. Nor even, thanks to the absence of an overtact requirement, must one of his co-conspirators
actually violate § 1962(c). See id. at 63, 118 S.Ct.
469. It is enough that the defendant "knew about
and agreed to facilitate the scheme" which at least
would have resulted in the satisfaction of §
1962(c) ’s elements. Id. at 66, 118 S.Ct. 469 ; see
also United States v. Fattah , 914 F.3d 112, 164
(3d Cir. 2019).
Thus, consistent with the general principles of
conspiracy law recited above, conspiracy to
violate § 1962(c) requires: (1) that two or more
persons agree to further an enterprise whose
activities affect or would affect interstate or
foreign commerce, and whose execution results or
would result in a person conducting or
participating directly or indirectly in the
enterprise's affairs through a pattern of
racketeering activity; (2) that the defendant was a

974 F.3d 320 (3d Cir. 2020)

370

party to or a member of this agreement; and (3)
that the defendant joined the agreement knowing
of its objectives *370 and with the intention of
furthering or facilitating them. See United States v.
John-Baptiste , 747 F.3d 186, 207 (3d Cir. 2014).

2. The Evidence
In any review of the sufficiency of the evidence
supporting a criminal conviction, "the relevant
question is whether, after viewing the evidence in
the light most favorable to the prosecution, any
rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt."
Jackson v. Virginia , 443 U.S. 307, 319, 99 S.Ct.
2781, 61 L.Ed.2d 560 (1979) (emphasis in
original). The Government may prove the
existence of a conspiracy entirely through
circumstantial evidence. United States v. Kapp ,
781 F.2d 1008, 1010 (3d Cir. 1986). In such
instances, we sustain the verdict if the proof
"appears as a reasonable and logical inference"
from
"evidence
of
related
facts
and
circumstances." United States v. Brodie , 403 F.3d
123, 134 (3d Cir. 2005) (citation omitted). And we
"must credit all available inferences in favor of the
government." Fattah , 914 F.3d at 162 (citation
omitted).
The Defendants—Cruz, Hernandez, Villega,
Kelly, Atkinson, Sistrunk, and Eatmon—contend
that the alleged South Side gang did not amount to
an enterprise for purposes of RICO liability. They
point to testimony that the South Side was simply
a neighborhood where the Defendants grew up or
lived; that the drug dealing that occurred there
amounted at best to parallel conduct by
independent actors; and that any violent incidents
were the product of personal "beefs."
It is undeniable that the drug dealers operating on
the South Side during the indictment period did
not constitute a gang on the order of the Bloods or
Crips. Nor was this a trafficking operation to rival
the ’Ndrangheta. Yet that is not what RICO
requires. The evidence need only support the

34

35a

United States v. Williams

conclusion that each of these seven Defendants at
least agreed to further a continuing unit that
functioned with a common illegal purpose.
Testimony showed that as early as 2002, Cruz,
Hernandez, and Kelly supplied crack to Atkinson
and Eatmon in the area around Maple and Duke.
App. 3543-47, 3633-34; see also App. 1503-07.
Hernandez and Kelly also, it was said, helped to
introduce guns to the South Side, at least partially
in response to fighting with Parkway. App. 3553.
A few years later, Sistrunk began selling drugs at
Maple and Duke. App. 3559-60. By that time,
however, Cruz, Hernandez, and Kelly had been
incarcerated, and so Atkinson, Eatmon, and
Sistrunk, among others, began collectively to
traffic in large quantities of crack. App. 3570-75,
3830-31; see also App. 2110-11; 3138-39. Their
profits were all earned separately, App. 3817-18,
but nevertheless the men sometimes shared scales
and bought or fronted drugs among each other,
App. 3574.

371

This association persisted into the next decade.
See, e.g. , App. 2456-57. In June 2011, while in
prison, Villega told Warren Pillgreen to "straighten
out that package," referring to a drug debt
Pillgreen owed to Hernandez. App. 3016. A few
months later, shortly before Pillgreen's release
from prison, Cruz engaged him to "commit an act
of violence" to settle the debt. App. 3018. By
2012, Cruz and Hernandez were still supplying
substantial amounts of crack, and Kelly was
present for these transactions. App. 3644-48. In
September, Cruz, Hernandez, Kelly, Atkinson, and
Eatmon were involved in a physical altercation
between South Side and Parkway at Rutter's gas
station. App. 3649-63. The Latham homicide
occurred just over two months later—an event, we
have seen, in which Hernandez, Cruz, Kelly, and
perhaps *371 Sistrunk played a part. App. 3637071; 3859-61. Finally, in early 2014, Villega's
floormate at a halfway house worked with him to
sell heroin, and occasionally observed him with
other individuals coming to and from the house's
basement. App. 4513-16. When police later

974 F.3d 320 (3d Cir. 2020)

searched the house, they discovered approximately
13.5 grams of heroin and 61 grams of crack in the
basement, and a photograph in Villega's bedroom
of himself, Cruz, and Hernandez. App. 4561,
4567-68.
A rational juror could conclude from this evidence
—and, more generally, from the entire body of
evidence—that each of the seven challengers
agreed to further an enterprise whose predominant
common purpose was "making money" through
the sale of controlled substances, but which also
occasionally embraced related ends, such as
"protecting its own members and criminal
schemes." See Bergrin , 650 F.3d at 269. As noted,
the conspiracy and the enterprise need not be
distinct, and a continuing unit for purposes of
RICO may exist even if a given Defendant was
not always active. See Boyle , 556 U.S. at 948, 129
S.Ct. 2237 ("[N]othing in RICO exempts an
enterprise whose associates engage in spurts of
activity punctuated by periods of quiescence.");
see also Smith , 568 U.S. at 114, 133 S.Ct. 714.
Here, each of the Defendants persisted in the
group's concerted illicit activities over an extended
period of time, operating within the larger, if
"relatively loose and informal," Bergrin , 650 F.3d
at 269, structure of the South Side's drug blocks.
Based on this evidence, we cannot say that no
rational juror would find the Defendants guilty of
RICO conspiracy under § 1962(d).

C. Count
Conspiracy

II:

Drug-Trafficking

We proceed, finally, to the evidence supporting the
convictions on Count II. Six Defendants—
Hernandez, Villega, Rice, Kelly, Sistrunk, and
Eatmon—challenge the sufficiency of this
evidence. We hold that a rational juror could have
found each of the challengers guilty under § 846
and attributed to him the § 841(b)(1)(A) quantities
for purposes of his statutory maximum term of
imprisonment.

1. The Elements of the Offense

35

36a

United States v. Williams

We have already described some of the basic
principles governing a defendant's liability under §
846 for participation in a drug-trafficking
conspiracy. See supra Sections V.A.2, V.B.1. Our
precedent and the foregoing discussion establish
three basic elements that the jury must find
beyond a reasonable doubt.
First , there must be a conspiracy—an agreement
among two or more persons to achieve by
concerted means an illegal goal. It has long been
settled in our Court that to prove a drug-trafficking
conspiracy, "the government must establish a unity
of purpose between the alleged conspirators, an
intent to achieve a common goal, and an
agreement to work together toward that goal."
Gibbs , 190 F.3d at 197. A conspiracy under § 846
becomes a drug-trafficking conspiracy when that
common goal is a violation or violations of §
841(a). But "[t]he government need not prove that
each defendant knew all of the conspiracy's
details, goals, or other participants." United States
v. Bailey , 840 F.3d 99, 108 (3d Cir. 2016)
(internal quotation marks omitted). The agreement
"is the essence of the offense," and "the presence
of certain facts often provides circumstantial
evidence of the underlying agreement." United
States v. Pressler , 256 F.3d 144, 147 (3d Cir.
2001).

372

Second , the defendant must have been a member
of the conspiracy. He must be shown to have
intended to further a scheme whose execution he
knew would or did result in the commission of
each element *372 of the substantive offense.
Under this latter "knowledge" requirement, the
government must prove "that the defendant had
knowledge of the specific objective contemplated
by the ... conspiracy." United States v. CaraballoRodriguez , 726 F.3d 418, 425 (3d Cir. 2013) (en
banc). In the present context, that means he must
have known that the conspiracy would or did
result in the distribution of a controlled substance.

974 F.3d 320 (3d Cir. 2020)

Although the evidence establishing the existence
of a conspiracy may coincide with proof of
participation in that conspiracy, "certain types of
circumstantial evidence become substantially
more probative if it can be established that a
conspiracy existed and the only remaining
question is whether the defendant was a part of it."
Pressler , 256 F.3d at 151. "[A] simple buyerseller relationship," however, "without any prior or
contemporaneous understanding beyond the sales
agreement itself, is insufficient to establish that the
buyer was a member of the seller's conspiracy."
Gibbs , 190 F.3d at 197. Rather, the "buyer" is
liable under § 846 only if direct or circumstantial
evidence shows that he knew "he was part of a
larger operation." United States v. Price , 13 F.3d
711, 728 (3d Cir. 1994) ; see also Gibbs , 190 F.3d
at 199-200 (listing several factors for making this
determination).
Third , if the indictment charges drug quantities
pursuant to § 841(b)(1)(A) or (b)(1)(B), then the
statutory maximum term of imprisonment is to be
determined according to the amount of drugs
involved in the conspiracy as a whole. Phillips ,
349 F.3d at 143. The mandatory minimum,
however, may be determined only according to the
aggregate quantity of drugs involved in those
violations of § 841(a) that were within the scope
of the conspiracy, or in furtherance of it, and were
reasonably foreseeable to the defendant as a
natural consequence of his unlawful agreement.
See supra Section V.A.2.

2. The Evidence
We proceed generally according to the
sufficiency-of-the-evidence
standard
recited
above. In cases of drug-trafficking conspiracy,
"the verdict must be upheld as long as it does not
‘fall below the threshold of bare rationality.’ "
Caraballo-Rodriguez , 726 F.3d at 431 (quoting
Coleman v. Johnson , 566 U.S. 650, 656, 132 S.Ct.
2060, 182 L.Ed.2d 978 (2012) ).

36

37a

United States v. Williams

The challengers contest the jury's verdicts on two
grounds. First, they contend there was no evidence
of an agreement either to form a conspiracy or to
join one. Second, they dispute the evidence as to
drug quantity. We consider each argument in turn.

Agreement
Our foregoing discussion establishes the common
foundation of RICO and drug-trafficking
conspiracy in the general principles of conspiracy
law. The two offenses may be coincident in their
factual circumstances, especially where the pattern
of racketeering activity involves "the felonious
manufacture, ... buying, selling, or otherwise
dealing in a controlled substance." 18 U.S.C. §
1961(1)(D). In the present cases, our evaluation of
the evidence supporting the Count I convictions of
Hernandez, Villega, Kelly, Sistrunk, and Eatmon
also applies here with regard to the requisite
conspiratorial agreement. See United States v.
Rodríguez-Torres , 939 F.3d 16, 30 (1st Cir. 2019)
(resolving defendants’ sufficiency challenges to
drug-trafficking-conspiracy convictions on the
basis of a preceding resolution of their sufficiency
challenges to their RICO-conspiracy convictions).

373

The only Defendant to challenge his Count II
conviction who was not convicted *373 on Count I
is Rice. He argues that there is insufficient
evidence showing that he ever joined the charged
conspiracy—that he was, at most, a street-level
dealer who abandoned that lifestyle upon his
release from prison in 2013. The evidence in the
record belies this argument. For example,
Cordaress Rogers testified that he, Rice, Atkinson,
Sistrunk, and Eatmon were "at one time in life ...
like[ ] brothers" and would hang out and sell drugs
together every day around Maple and Duke. App.
3571. This went beyond friendship to mutual
facilitation of drug trafficking. They would gather
at each other's houses to sell drugs; they would
buy drugs from each other or front them to each
other when one ran out; they would share scales
for measuring the drugs. App. 3572-74. They sold
primarily to dealers, rather than users. App. 383031. Further, upon his release from prison in late

974 F.3d 320 (3d Cir. 2020)

July 2008, Rice returned to the South Side. At that
point, Jerrod Brown identified Rice as handling
guns and seeking retribution for the shooting of
Jahkeem Abney outside the night club in midMarch 2009. App. 2113-14. Finally, Brown also
testified that sometime after May 2013—which
would have been shortly after Rice's release from
prison—Rice supplied him with crack. App. 216364.
Based on this evidence, a reasonable juror could
conclude that Rice was consciously and willingly
a part of a larger drug-trafficking operation and
remained so even after periods of imprisonment.
See Gibbs , 190 F.3d at 200.

Drug Quantity
A rational juror also could conclude that
Hernandez, Villega, Rice, Kelly, Sistrunk, and
Eatmon were each responsible, on a conspiracywide basis, for 280 grams or more of crack
cocaine. Rogers's testimony alone indicated that in
the early years just after 2002, he received 1
kilogram of crack from each of Hernandez, Kelly,
and Cruz. App. 3633-34. At that time, he was
close with Atkinson, Rice, and Eatmon, who were
receiving drugs from Hernandez and Kelly in
similar quantities. App. 3543-45. Rogers also
estimated that in later years, when he, Atkinson,
Rice, Sistrunk, and Eatmon worked closely
together, he would bring back from New York
500-1000 grams of crack "[e]very couple of days."
App. 3573. He testified that in this time he
distributed and saw his friends distribute "many
kilos of crack." App. 3575. Moreover, to the
extent that any of the Defendants were
incarcerated and could not have been present for
the movement of these quantities, their renewed
drug dealing upon release from prison confirms
their continuing liability for acts in furtherance of
the conspiracy, even apart from the absence of an
affirmative act of withdrawal. See Hyde , 225 U.S.
at 369-70, 32 S.Ct. 793.

37

38a

United States v. Williams

Finally, as noted above, Villega aided Hernandez
in the collection of a drug debt by warning
Pillgreen to "straighten out that package." App.
3016. Marquis Williams testified that Villega
fronted him 6 grams of heroin in 2013. App. 244344, 2655. By early 2014, Villega was still dealing
heroin, App. 4513-16, and police later recovered
about 13.5 grams of heroin and 61 grams of crack
from the basement Villega was seen to frequent
with others. App. 4561. In just that timeframe,
from 2011 to 2014, Rogers testified that he
received 156 grams of crack from Cruz and
Hernandez, App. 3645-46, and Marquis Williams
said he sold 50-gram quantities of crack on
"several" occasions, App. 2442. Based on this
evidence alone, an attribution to Villega of over
280 grams of crack on a conspiracy-wide basis
does not fall below the threshold of bare
rationality.
***

374

There was sufficient evidence upon which a
rational juror could have *374 concluded that these
six Defendants were guilty under § 846 and were
responsible for 280 grams or more of crack.
Because we reach this conclusion, we further
conclude that the Rowe error on Count III did not
affect their substantial rights. Their statutory
maximum terms of imprisonment would have
been life even if the Rowe error had not occurred.

VI. SENTENCING
The final category of issues concerns the
sentences imposed in the years following the trial.
All the Defendants challenge various aspects of
those judgments.41 For the reasons that follow, we
will affirm the judgments of sentence of Williams
and Rice. But we will vacate Hernandez's
judgment of sentence in full, the other Defendants’
judgments of sentence in part, and remand the
cases of Hernandez and Schueg for resentencing
proceedings consistent with this opinion.
41 Some Defendants have sought, pursuant to

Rule 28(i), to adopt sentencing challenges
of others. However, general adoptions or

974 F.3d 320 (3d Cir. 2020)
ones that concern an argument specific to
the arguing party will not be regarded, if
they are not accompanied by further
elaboration. We refuse to speculate on how
an

issue

applies

to

a

Defendant's

sentencing judgment when he himself has
declined to do so.

A. Individual Challenges
1. Williams
Jabree Williams's Presentence Report (PSR)
recommended a Guidelines range of 78-97 months
in prison. The District Court sentenced him to 60
months, the mandatory minimum, based upon
time served for two prior state drug convictions.
The Court also recommended that the Bureau of
Prisons credit Williams with an additional 13
months for time served on a prior juvenile offense,
and with approximately 28-29 months for time in
federal custody.
Williams raises only one issue on appeal. The
District Court, he contends, should have credited
the 13-month term because 18 U.S.C. § 3584, as
applied here, violates his Fifth Amendment due
process right. That provision states, in relevant
part: "if a term of imprisonment is imposed on a
defendant who is already subject to an
undischarged term of imprisonment, the terms
may run concurrently or consecutively." 18 U.S.C.
§ 3584(a). Williams argues that the statute draws
an arbitrary distinction between discharged and
undischarged sentences. The Government counters
that Williams did not raise this issue
contemporaneously, and that a reversible plain
error did not occur. Williams offers no reply, and
there is no evidence suggesting preservation. Our
review, then, is for plain error.
We need not address the merits of Williams's
constitutional challenge to § 3584. For even if
there was an error, it was not plain. A "court of
appeals cannot correct an error pursuant to Rule
52(b) unless the error is clear under current law."
Olano , 507 U.S. at 734, 113 S.Ct. 1770. Every
court of appeals to have considered the issue, or a

38

39a

United States v. Williams

375

related challenge to U.S.S.G. § 5G1.3(b), has
rejected Williams's argument. See United States v.
Lucas , 745 F.3d 626, 630-31 (2d Cir. 2014) (per
curiam); United States v. Dunham , 295 F.3d 605,
610-11 (6th Cir. 2002) ; United States v. Otto , 176
F.3d 416, 418 (8th Cir. 1999). Only a district
court, in another circuit, has held to the contrary.
United States v. Hill , 187 F. Supp. 3d 959, 965
(N.D. Ill. 2016). Given the balance of such
authority, it cannot be said the assumed error here
is " ‘obvious’ or ‘clear under current law.’ "
Vazquez , 271 F.3d at 100 (quoting Olano , 507
U.S. at 734, 113 S.Ct. 1770 ). We reserve for
another day our own views on the merits.*375 2.
Hernandez
At Hernandez's sentencing hearing, his attorney,
Morris, stated that "Mr. Hernandez does not desire
to address the court this morning. However, he did
want me to say that he wanted to thank his family
for their support of him throughout this process,
and so we'd have nothing further beyond that."
App. 289. The District Court accepted this
submission, and, after allowing the Government
an opportunity to speak, announced its judgment.
It did not address Hernandez personally, and
neither Morris nor the Government raised
Hernandez's right to allocution. See Fed. R. Crim.
P. 32(i)(4)(a)(ii) ; Green v. United States , 365
U.S. 301, 305, 81 S.Ct. 653, 5 L.Ed.2d 670 (1961)
(plurality opinion); id. at 307, 81 S.Ct. 653 (Black,
J., dissenting).
Hernandez now argues that he is entitled to
resentencing proceedings under United States v.
Adams , 252 F.3d 276 (3d Cir. 2001). The
Government concedes the point, but it asserts
without elaboration that resentencing "should be
limited to providing Hernandez the opportunity to
allocute should he so desire." Gov't Br. at 212. We
disagree. In Hill v. United States , 368 U.S. 424,
82 S.Ct. 468, 7 L.Ed.2d 417 (1962), the Supreme
Court cited Van Hook v. United States , 365 U.S.
609, 81 S.Ct. 823, 5 L.Ed.2d 821 (1961) (per
curiam), for the appropriate remedy in direct
appeals. 368 U.S. at 429 n.6, 82 S.Ct. 468. Van

974 F.3d 320 (3d Cir. 2020)

Hook is a one-sentence opinion, stating: "The
judgment is reversed and the case remanded for
resentencing in compliance with" Rule 32 and
Green . 365 U.S. at 609, 81 S.Ct. 823. This
language provides no indication of a limited
remand, and our post- Adams cases have not
applied such a remedy. See United States v.
Chapman , 915 F.3d 139, 147 (3d Cir. 2019) ;
United States v. Paladino , 769 F.3d 197, 204 (3d
Cir. 2014) ; United States v. Plotts , 359 F.3d 247,
251 (3d Cir. 2004). Hernandez is entitled to a
resentencing proceeding, with all its attendant
considerations.42 See, e.g. , Pepper v. United
States , 562 U.S. 476, 131 S.Ct. 1229, 179
L.Ed.2d 196 (2011). However, the District Court
may, in its discretion, allow the Government to
offer new evidence. United States v. Dickler , 64
F.3d 818, 831-32 (3d Cir. 1995).
42 Because we reach this conclusion, we

address

neither

Hernandez's

other

sentencing challenges nor the effect of the
mandatory minimum error at Count II.

3. Kelly
Kelly brings several challenges to his concurrent
life sentences. Five of those challenges are unique
to him. He asserts four procedural defects in the
District Court's decision, and he claims that the
sentences were substantively unreasonable. We
review procedural-soundness and substantiveunreasonableness challenges for abuse of
discretion. United States v. Tomko , 562 F.3d 558,
567 (3d Cir. 2009) (en banc). Further, "[w]e
exercise plenary review of a district court's
interpretation of the Sentencing Guidelines and
review its factual findings for clear error." United
States v. Welshans , 892 F.3d 566, 573 (3d Cir.
2018). Four of the issues are meritless. The other
leaves Kelly's sentence unaffected.
1. Dangerous-weapon enhancement. Kelly asserts
that the District Court erred in applying the twolevel enhancement for possession of "a dangerous
weapon" in connection with a controlledsubstances offense. U.S.S.G. § 2D1.1(b)(1). We

39

40a

United States v. Williams

376

disagree. The government can show possession
simply "by establishing that a temporal and spatial
relation existed between the weapon, the drug
trafficking activity, and the defendant." United
States v. Napolitan , 762 F.3d 297, 309 (3d Cir.
2014) (internal quotation marks omitted). If it
does so, the burden shifts to the defendant to show
that "it is clearly improbable *376 that the weapon
was connected with the offense." U.S.S.G. §
2D1.1 cmt. n.11. Here, Cordaress Rogers testified
that Kelly supplied drugs to numerous younger
dealers and helped to introduce guns to the South
Side, that a lot of people had guns, and that guns
were stashed on the blocks. The prevalence of
firearms was also described in other testimony.
This evidence establishes the requisite nexus, and
Kelly gives no indication of clear improbability.
2. Organizer or leader increase. Kelly contends
that the District Court erred in applying a fourlevel increase for being "an organizer or leader of
a criminal activity that involved five or more
participants." U.S.S.G. § 3B1.1(a). When
determining whether to apply this enhancement, a
court should consider, among other things, "the
nature of participation in the commission of the
offense, ... the degree of participation in planning
or organizing the offense, [and] the nature and
scope of the illegal activity." U.S.S.G. § 3B1.1
cmt. n.4. As just noted, the evidence indicated that
Kelly supplied a substantial amount of crack to the
younger generation of street-level dealers,
associated with other key suppliers such as Cruz
and Hernandez, and helped to introduce guns into
the South Side-Parkway rivalry. In this light, we
cannot say the District Court clearly erred in
imposing the enhancement.
3. Calculation of criminal-history score. Kelly
next contests his classification as a career offender
for purposes of his criminal-history category.
Under the Guidelines, a defendant is a career
offender if he "has at least two prior felony
convictions of either a crime of violence or a
controlled substance offense." U.S.S.G. §
4B1.1(a). An offense committed before the age of

974 F.3d 320 (3d Cir. 2020)

18 may qualify "if it is classified as an adult
conviction under the laws of the jurisdiction in
which the defendant was convicted." U.S.S.G. §
4B1.2 cmt. n.1. Kelly argues that one of his
predicate convictions, a November 1994
conviction in New York state court for attempted
murder, was not so classified. The District Court
found that it was, based largely on a "Sentence &
Commitment" form of the New York Supreme
Court, Bronx County.
This finding was not clearly erroneous. As the
District Court pointed out, on the form there were
two options after the line "The defendant having
been." Gov't Supp. App. 165. One was "convicted
of the crime(s) of"; the other, "adjudicated a
Youthful Offender." The former was checked,
suggesting Kelly's conviction was the same as that
for an adult. At the bottom of the form was written
"YO denied." The District Court reasonably
inferred that this meant "youthful offender
denied." Kelly App. 518. Finally, simply because
Kelly was marked a "Juvenile Offender" on the
form is not, under applicable New York law,
indicative of a non-adult conviction. See In re
Raymond G. , 93 N.Y.2d 531, 693 N.Y.S.2d 482,
715 N.E.2d 486, 488 (1999) ; Matter of Vega , 47
N.Y.2d 543, 419 N.Y.S.2d 454, 393 N.E.2d 450,
452-53 (1979).
4. Use-of-violence enhancement. Kelly points out
that the District Court failed to consider his
objection to the two-level enhancement under
U.S.S.G. § 2D1.1(b)(2). The Government
essentially concedes the point, arguing only that
the District Court addressed Kelly's use of
violence when it rendered its decision. But, of
course, the sentencing judge must make "an
individualized assessment based on the facts
presented." Gall v. United States , 552 U.S. 38, 50,
128 S.Ct. 586, 169 L.Ed.2d 445 (2007).
Nevertheless, because we reject Kelly's other
procedural challenges, this error does not affect
his total offense level.

40

41a

United States v. Williams

377

974 F.3d 320 (3d Cir. 2020)

5. Substantive reasonableness. "[I]f the district
court's sentence is procedurally sound, we will
affirm it unless *377 no reasonable sentencing
court would have imposed the same sentence on
that particular defendant for the reasons the
district court provided." Tomko , 562 F.3d at 568.
In rendering its judgment, the District Court said:
"[Kelly's] not here for an isolated event, he's here
for a decade-long conspiracy that involved
multiple episodes of violence and harm to
innocen[ts] in the community .... The defendant
was at the core of this enterprise and these violent
acts." Kelly App. 528. The District Court noted
Kelly's "involve[ment] in drug and gang activity
from a very young age." Kelly App. 528. It
observed that "[h]e was a leader of the gang ... and
was a participant and present at many of the
violent activities that occurred here." Kelly App.
528. A reasonable jurist easily could have imposed
the life sentences the District Court did.

income, and "financial obligations." 18 U.S.C. §
3664(f)(2). We have interpreted this provision
loosely, requiring only that "the record evidence[ ]
a court's consideration of the defendant's financial
situation," though "express findings" need not be
made. United States v. Lessner , 498 F.3d 185, 202
(3d Cir. 2007). Nevertheless, in this case, we
cannot find in the record any consideration of
Schueg's financial condition. There was testimony
regarding a denial of financial aid on a college
application, and gifts that Schueg gave to his
sister's children. None of that, however, goes to
his ability to pay at the time of sentencing. While
the District Court did specify a payment schedule,
there is no indication where the Court determined
Schueg had the ability to fulfill that schedule—
especially given the PSR's finding and Schueg's
objection in his sentencing memorandum. We will,
therefore, vacate the District Court's judgment of
sentence as it relates to the assessment of
restitution, fines, and costs, and remand for
consideration of Schueg's ability to pay.

4. Schueg
Schueg's challenges to his concurrent 165-month
sentences all relate to the assessment of fines and
costs. After stating simply that Schueg "has the
ability to pay a fine," the District Court ordered
that he, together with other defendants, pay $6,500
in restitution under the Mandatory Victims
Restitution Act (MVRA). Schueg App. 63-64. It
also ordered payment of the special assessment
under 18 U.S.C. § 3013(a)(2)(A), and of certain
costs of prosecution, including $13,948.76 for the
compensation of York police officers who testified
at trial. Although Schueg challenges the MVRA
and police compensation orders on substantive
grounds, he also, as a threshold matter, contests
the District Court's finding of an ability to pay.
The PSR found that Schueg lacked such an ability,
and he raised the issue in his sentencing
memorandum.
Under the MVRA, a district court must "specify in
the restitution order the manner in which, and the
schedule according to which, the restitution is to
be paid," after considering the defendant's
"financial resources and other assets," projected

5. Atkinson

378

Atkinson contests the District Court's application
of a two-level enhancement for obstructing the
administration of justice. To be eligible for that
increase, a defendant must (as relevant here) have
"willfully ... attempted to obstruct or impede[ ] the
administration of justice with respect to the ...
sentencing of the instant offense of conviction."
U.S.S.G. § 3C1.1. While Atkinson was in prison
awaiting sentencing, he allegedly stabbed Carl
Hodge, a fellow prisoner, multiple times while the
latter was in the shower. The proximate cause of
the episode, according to Hodge's testimony at
Cruz's sentencing hearing, was that Hodge came
into possession of a *378 cellphone Hernandez was
using for ongoing illegal activities: bribing prison
guards, selling drugs, and arranging a murder.
Hodge began to share the phone's contents with
the Government. Cruz and Atkinson became
suspicious, leading to the assault.

41

42a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

Atkinson does not dispute Hodge's testimony. He
argues, rather, that even if he had a motive to harm
Hodge because of suspected cooperation, he could
not reasonably have believed that Hodge would
testify against him at sentencing. See United
States v. Galaviz , 687 F.3d 1042, 1043 (8th Cir.
2012). Section 3C1.1 does not demand such a
standard. Testimony at sentencing is only one
means
Hodge
could
potentially
have
disadvantaged Atkinson's legal position. As the
facts show, Hodge was cooperating with regard to
contemporaneous events, disclosing potentially
prejudicial material to the Government. To
demand that Atkinson reasonably believed Hodge
would testify against him is unduly limiting and
beyond the text of § 3C1.1. "[T]he administration
of justice with respect to" sentencing encompasses
more than witness testimony.

information used for sentencing "must have
‘sufficient indicia of reliability to support its
probable accuracy.’ " United States v. Miele , 989
F.2d 659, 663 (3d Cir. 1993) (quoting U.S.S.G. §
6A1.3(a) ).

From that perspective, Atkinson's enhancement
must remain. His "instant offense" was among
other things RICO conspiracy, and Hodge was
suspected of (and indeed was) revealing to the
Government information related to ongoing
concerted illicit activities of at least Hernandez,
Cruz, and Atkinson. That goes directly to the
offense of which Atkinson was convicted and
awaiting sentencing. The District Court, then, did
not clearly err in finding a nexus between the
attack and Atkinson's pending legal proceedings.

objections to the calculation, and the

43 Villega also seeks to challenge his offense

level on this ground, pointing out that the
District Court did not rule on his objections
regarding drug quantity, a dangerousweapon enhancement, and relevant conduct
for the RICO conspiracy. But there is good
reason for that: Villega's trial counsel and
the Government agreed, and represented to
the District Court at the sentencing hearing,
that the baseline would be an offense level
of 37, which, with a criminal history
category of VI, resulted in a Guidelines
range of 360 months to life imprisonment.
Villega's counsel thereafter raised no
District

applied

no

additional

below the agreed-upon range. Contrary to
Villega's representations on appeal, it is
clear that he waived any challenges to his
offense level. See, e.g. , United States v.
Ward , 131 F.3d 335, 342-43 (3d Cir.
1997).

B. Collective Challenges
1. Drug Quantity
Rice, Eatmon, and Kelly challenge the District
Court's drug-quantity attributions pursuant to the
Guidelines’ relevant-conduct provision.43 See
U.S.S.G. §§ 1B1.3(a)(1)(B), 2D1.1(a). Our review
is for clear error. United States v. Perez , 280 F.3d
318, 352 (3d Cir. 2002). "[W]e permit some
degree of estimation in drug conspiracy cases
because the government usually cannot seize and
measure all the drugs that flow through a large
drug distribution conspiracy." United States v.
Diaz , 951 F.3d 148, 159 (3d Cir. 2020) (internal
quotation
marks
omitted).
Nevertheless,

Court

enhancements. The ultimate sentence was

379

Rice's PSR recommended a base offense level of
30, due to a drug-quantity attribution of 280-840
grams of crack. See U.S.S.G. § 2D1.1(c)(5). The
District Court adopted this recommendation based
upon the findings of the jury. Although the jury's
findings were on a conspiracy-wide basis, the
District Court could also, by a preponderance of
the evidence, have incorporated those findings
consistent with the *379 relevant-conduct standard.
See Collado , 975 F.2d at 995.
As remarked above, Rogers testified that in the
conspiracy's early years, he, Atkinson, Eatmon,
and Rice all sold crack they received from
Hernandez and Kelly. Rogers agreed that they
were "essentially getting the same quantities or
similar quantities," App. 3544-45, and he
estimated that in this time he received

42

43a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

approximately 1 kilogram of crack from both
Hernandez and Kelly. Further, in around 20062007, when those suppliers were imprisoned,
Rogers said that he, Atkinson, Eatmon, Sistrunk,
and Rice continued to sell drugs together, and that
they mutually facilitated each other's drug dealing.
Rice does not dispute this testimony, and other
evidence indicates his continued involvement in
the conspiracy in the years thereafter. The District
Court did not clearly err in its attribution.

up to the time of the initial indictment in March
2014. Given this longitudinal evidence of Kelly's
twelve-year participation in the highest levels of
the conspiracy, the indications of persistent drugdealing activity, and the testimony regarding the
amounts involved, we cannot say the District
Court clearly erred in its attribution.

2. Body-Armor Enhancement

The same goes for Eatmon. He received a base
offense level of 38, on an attribution of 28
kilograms or more of crack. Rogers testified that
for about a year between 2006 and 2007, he would
bring back from New York 500 to 1000 grams of
crack "[e]very couple of days." App. 3573. He
agreed that he distributed, and that he saw Eatmon
and others distribute, "many kilos of crack" over
that time. App. 3575. Further, Darvin Allen
testified that around that same time, for
approximately one to two years, he received from
Eatmon about 14 grams of crack a week. Eatmon
indicates nothing in the record to doubt the
reliability of this testimony. The attribution of 28
kilograms or more was not clear error.
Finally, Kelly's challenge fails on a similar basis.
His base offense level, like Eatmon's, was 38,
thanks to an attribution of 28 kilograms or more of
crack. Rogers testified that he received
approximately 1 kilogram of crack from each of
Hernandez, Cruz, and Kelly in the years after
2002, and, as just noted, he said that Atkinson,
Eatmon, and Rice all received a similar amount
from at least Hernandez and Kelly. There was also
testimony from a high-level South Side supplier,
who said that in these years he moved 500 grams
to 1 kilogram of crack a week, including deliveries
to Cruz and Hernandez. Further, Rogers testified
that by 2012, Kelly was present when he paid
Hernandez for crack that had been fronted. This
indicates Kelly's continued active participation in
the conspiracy. Finally, as mentioned above, there
was evidence that Kelly continued to associate
with Cruz and Hernandez, and supply crack even

380

During his testimony regarding the early years of
the conspiracy, Rogers said that he saw Hernandez
and Kelly wearing bulletproof vests on multiple
occasions at Maple and Duke Streets. Under the
Guidelines, a defendant "convicted of a drug
trafficking crime or a crime of violence" may be
eligible for a two- or a four-level increase to his
offense level based on the use of body armor in
the commission of the offense. U.S.S.G. §
3B1.5(1). The two-level increase applies when
"the offense involved the use of body armor."
U.S.S.G. § 3B1.5(2)(A). The four-level one
applies if "the defendant used body armor during
the commission of the offense, in preparation for
the offense, or in an attempt to avoid apprehension
for the offense." U.S.S.G. § 3B1.5(2)(B). Kelly
received the latter enhancement; Atkinson and
Eatmon the former.*380 Kelly asserts that Rogers's
testimony does not provide a sufficient nexus
between the wearing of the body armor and the
commission of the offense. The commentary to §
3B1.5 defines "use" in part as "active employment
in a manner to protect the person from gunfire."
U.S.S.G. § 3B1.5 cmt. n.1. Kelly was said to have
worn body armor multiple times on Maple and
Duke Streets—the eponymous location of the
primary crew of drug traffickers on the South
Side. Further, Rogers's testimony was not an
offhand remark; it came in the context of a
description of the conspiracy's early years, when
Kelly and Hernandez began supplying crack to
Rogers, Atkinson, Eatmon, and Rice. Kelly,
Hernandez, and Cruz would be "standing there on
Duke Street, so you would just buy the drugs from
them and then go sell them on your own." App.
3546. It was also when Kelly and Hernandez

43

44a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

helped to introduce guns to the South Side, and
the South Side-Parkway rivalry escalated from
fistfights to gunfights. There is, therefore, a spatial
and temporal nexus between Kelly's use of the
body armor and the commission of the conspiracy
offense.
Application
of
the
four-level
enhancement was not clear error.
This same evidence supports the application §
3B1.5(2)(A) to Atkinson and Eatmon. We apply to
the Guidelines the ordinary principles of statutory
interpretation. See, e.g. , United States v. James ,
952 F.3d 429, 433, 439 (3d Cir. 2020). The
provisions here are notably different: while the
four-level enhancement concerns the actions of the
defendant , the two-level one concerns the nature
of the offense . The latter—which encompasses
"the offense of conviction and all relevant
conduct," U.S.S.G. § 3B1.5 cmt. n.1 (citing
U.S.S.G. § 1B1.1 cmt. n.1(I))—need only
"involve[ ]" the use of body armor. According to
Rogers's testimony, Kelly and Hernandez's use of
the body armor occurred at the time Atkinson and
Eatmon were being supplied by them. Eatmon
protests he had not joined the conspiracy by this
point, but he presents no evidence to question the
District Court's judgment.

3. Costs of Prosecution
Seven Defendants—Cruz, Hernandez, Villega,
Kelly, Schueg, Atkinson, Sistrunk, and Eatmon—
challenge the District Court's assessment of a fine
to reimburse the City of York for the overtime
wages paid to York police officers who testified at
trial. The Government concedes the issue. We
will, therefore, vacate this aspect of the
challengers’ judgments of sentence.

VII. CONCLUSION

proceedings consistent with this opinion. We will
also vacate the judgments of sentence of Cruz,
Villega, Kelly, Atkinson, Sistrunk, and Eatmon as
to the police overtime costs.
RESTREPO, Circuit Judge, dissenting.

381

The District Court issued a sua sponte order
closing the courtroom for jury selection.
Appellants were eventually convicted on various
counts related to their involvement in a local street
gang and were sentenced to prison. Among other
issues they raise on appeal, Appellants argue that
they are entitled to a new trial because of the
courtroom closure. Due to the deep roots the right
to a public trial has in our history and its critical
importance to the functioning of our criminal
justice system, I would reverse Appellants’
convictions and remand for a new trial. I
respectfully dissent.*381 I.
Following an extensive investigation conducted by
the United States Bureau of Alcohol, Tobacco,
Firearms and Explosives, a grand jury returned a
six-count
indictment
against
twenty-one
defendants. From 2002 to 2014, the defendants
were alleged to have participated in a racketeering
conspiracy, a drug trafficking conspiracy, and drug
trafficking while involved with a York,
Pennsylvania street gang. After nine defendants
entered into plea agreements with the
Government, twelve went to trial. Ten of these
defendants (collectively, "Appellants") now appeal
their convictions and sentences ranging from sixty
months to life imprisonment.
On the eve of the trial, the District Court issued an
order closing the courtroom for the entirety of jury
selection. In full, the order states:

For the foregoing reasons, we will affirm the
Defendants’ judgments of conviction, and the
judgments of sentence of Williams and Rice. We
will vacate Hernandez's judgment of sentence in
full, and Schueg's judgment of sentence as to the
assessment of restitution, fines, and costs. We will
remand those two cases for resentencing
44

45a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

AND NOW , on this 18th day of
September 2015, IT IS HEREBY
ORDERED THAT due to courtroom
capacity limitations, only (1) court
personnel, (2) defendants, (3) trial counsel
and support staff, and (4) prospective
jurors shall be allowed into the courtroom
during jury selection. No other individuals
will be present except by express
authorization of the Court.

The public trial guarantee is deeply rooted in our
common law heritage. In England, early court
proceedings required public access to "moots,"
which later evolved into juries, consisting of "the
freemen of the community." See Press-Enterprise ,
464 U.S. at 505, 104 S.Ct. 819. In the eleventh
century, the jury began to transform into a small
group of individuals that represented the
community, but "the public character of the
proceedings, including jury selection, remained
unchanged." Id. at 506, 104 S.Ct. 819. As early as
the sixteenth century, jurors in England were
selected "openlie in the presence of the Judges, the
Justices, the enquest, the prisoner, and so many as
will or can come so neare as to heare it ." Id. at
507, 104 S.Ct. 819 (emphasis in original) (quoting
Thomas Smith, De Republica Anglorum 96 (1565)
(Alston ed. 1906)).

App. 10 (bold in original). Neither the
Government nor the defendants requested this
order, and the District Court did not seek their
input. The Court closed the courtroom to the
public without determining whether it was
necessary or considering any alternatives. None of
the defendants objected to the order, and voir dire
then took place for two days.

II.
We must now decide whether to correct an
erroneous courtroom closure despite Appellants’
failure to object. As a preliminary matter, it is
imperative to understand the contours of the
constitutional right in question.
The Sixth Amendment provides that "the accused
shall enjoy the right to a speedy and public
trial"—and the Supreme Court has long
recognized the importance of the public trial right
for the accused and the broader community. See,
e.g., In re Oliver , 333 U.S. 257, 68 S.Ct. 499, 92
L.Ed. 682 (1948). "[T]he Sixth Amendment right
to a public trial extends to the voir dire of
prospective jurors." Presley v. Georgia , 558 U.S.
209, 213, 130 S.Ct. 721, 175 L.Ed.2d 675 (2010)
(per curiam); see also Press-Enterprise Co. v.
Superior Court , 464 U.S. 501, 508, 104 S.Ct. 819,
78 L.Ed.2d 629 (1984) (noting that "the accused's
right [to a fair trial] is difficult to separate from the
right of everyone in the community to attend the
voir dire " under the First Amendment). As a part
of the public trial right, criminal defendants and
the public at large are entitled to open
proceedings.

382

The presumption of public jury selection "carried
over into proceedings in colonial *382 America."
Id. at 508, 104 S.Ct. 819 (discussing accounts on
the need for bystanders at trials following the
Boston Massacre). Many of the thirteen colonies
enacted statutes requiring jury selection to occur
in open court. See id. ("Public jury selection ...
was the common practice in America when the
Constitution was adopted."). For instance, a 1773
statute in North Carolina required that court
clerks,
write the Names of all Petit Jurors
appearing, on Scrolls or Pieces of Paper,
which shall be put into a Box; and on
every Issue in every Suit where it is not
otherwise agreed by Consent, a Child
under Ten Years old, in open Court , shall
draw out of the said Box Twelve of the
said Scrolls or Pieces of Paper.
James Davis, Complete Revisal of All the Acts of
Assembly, of the Province of North-Carolina, Now
in Force & Use 549 (1773) (emphasis added).
Delaware employed a similar system in which
prospective jurors’ names were placed in a box
until "some indifferent person, by the direction of

45

46a

United States v. Williams

the court, may and shall, in open court , draw out
twelve of the said pieces of parchment or paper." 2
Laws of the State of Delaware 1073 (Samuel &
John Adams eds. 1797) (emphasis added). These
are just two examples, as open voir dire
proceedings were the practice at the time of our
Nation's founding.
The Sixth Amendment enshrined the presumption
of public access in the Constitution. The Founding
Fathers believed that public court proceedings
provided safeguards integral to the nascent
republic. At the Constitutional Convention, broad
agreement existed regarding the jury trial's
importance as "a valuable safeguard to liberty ...
[or] the very palladium of free government." The
Federalist No. 83, at 461 (Alexander Hamilton)
(P.F. Collier ed., 1901). And jury selection was
viewed as a "double security" against corruption
that would require a person to "corrupt both the
court and the jury." Id. at 463.

974 F.3d 320 (3d Cir. 2020)

framework within which the trial proceeds," thus
"infect[ing] the entire trial process" and
undermining the ultimate determination of "guilt
or innocence." Neder v. United States , 527 U.S. 1,
8–9, 119 S.Ct. 1827, 144 L.Ed.2d 35 (1999)
(citations and internal quotation marks omitted).
An open courtroom during jury selection is
fundamental to protecting defendants’ right to a
jury free from prejudice and ensuring public
confidence in the administration of justice. See
Press-Enterprise , 464 U.S. at 508, 104 S.Ct. 819 ;
United States v. Negrón-Sostre , 790 F.3d 295, 301
(1st Cir. 2015). Accordingly, it was a structural
error to close the courtroom during voir dire .
1 There are limited instances in which

closing a courtroom is not structural error.
A judge may order a closure based on
findings that specifically identify "higher
values" that must be preserved. Waller v.
Georgia , 467 U.S. 39, 45, 104 S.Ct. 2210,
81 L.Ed.2d 31 (1984) (quoting Press-

Enunciating "revolution principles" under the
pseudonym "Novanglus," John Adams struck
similar themes when he explained that "draw[ing]
[jurors] by chance out of a box in open town
meeting " best "secured against a possibility of
corruption of any kind ... having seen with their
own eyes, that nothing unfair ever did or could
take place." John Adams, Novanglus; or, A
History of the Dispute with America from Its
Origin, in 1754, to the Present Time , The
Revolutionary Writings of John Adams 152, 199
(C. Bradley Thompson, ed., 2000) (emphasis
added). These sentiments were explicitly
incorporated into the Constitution in the language
of the Sixth Amendment.

383

Enterprise , 464 U.S. at 510, 104 S.Ct. 819
); see also Weaver , 137 S. Ct. at 1909 ("
[A] judge may deprive a defendant of his
right to an open courtroom by making
proper factual findings in support of the
decision to do so."). Trial courts are
required to "consider alternatives to closure
even when they are not offered by the
parties." Presley , 558 U.S. at 214, 130
S.Ct. 721.
The District Court did not consider
alternative options or make any factual
findings in support of its order. The
Government points to comments the
District Court made on the number of
people in the courtroom. However, these
comments do not support the proposition

It is thus no surprise that the Supreme Court
classifies courtroom closures "as a structural
error" that generally "entitl[es] the defendant to
automatic
reversal."1
*383
Weaver
v.
Massachusetts , ––– U.S. ––––, 137 S. Ct. 1899,
1905, 198 L.Ed.2d 420 (2017) (plurality opinion).
Courts usually reverse criminal convictions tainted
by a structural error because they affect "the

that the District Court made the required
findings because they came days after the
order and are not linked in any discernible
way to the closure.

III.

46

47a

United States v. Williams

There are instances in which a structural error
does not automatically lead to a reversal. In
Weaver , the Supreme Court recently examined an
erroneous courtroom closure on collateral review.
Due to space limitations, "an officer of the court
excluded from the courtroom any member of the
public who was not a potential juror." Weaver ,
137 S. Ct. at 1906. Citing finality concerns, the
plurality concluded that the petitioner did not
demonstrate prejudice as required for a new trial
under Strickland v. Washington , 466 U.S. 668,
104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). See
Weaver , 137 S. Ct. at 1912–14. Although the
Weaver plurality cautioned courts not to assume
that public trial violations always require reversal
in a collateral proceeding, it did not address the
appropriate remedy when the error is raised for the
first time on direct review.
Here, Appellants did not object to the District
Court's closure order or otherwise preserve their
claim during the trial. We thus review the order for
plain error. Fed. R. Crim. P. 52(b). Appellants
must satisfy four prongs under plain error review.
See United States v. Olano , 507 U.S. 725, 736,
113 S.Ct. 1770, 123 L.Ed.2d 508 (1993). They
must show (1) that there was an error, (2) that was
"clear or obvious," and (3) it must have impacted
their "substantial rights." Puckett v. United States ,
556 U.S. 129, 135, 129 S.Ct. 1423, 173 L.Ed.2d
266 (2009). The third prong generally "means that
the error must have been prejudicial," meaning "
[i]t must have affected the outcome of the district
court proceedings." Olano , 507 U.S. at 734, 113
S.Ct. 1770. Fourth, reviewing courts have
discretion to remedy a forfeited error if it
"seriously affect[ed] the fairness, integrity or
public reputation of judicial proceedings." Id. at
736, 113 S.Ct. 1770 (citation and internal
quotation marks omitted). Only the third and
fourth prongs are relevant for our purposes
because the parties agree that the closure was a
clear error. Below, I will consider these prongs in
turn.

A.

974 F.3d 320 (3d Cir. 2020)

384

Olano ’s substantial rights prong typically requires
a showing of prejudice. Puckett , 556 U.S. 129,
129 S.Ct. 1423. "To satisfy this ... condition, the
defendant ordinarily must show a reasonable
probability that, but for the error, the outcome of
the proceeding would have been different."
Rosales-Mireles v. United States , ––– U.S. ––––,
138 S. Ct. 1897, 1904–05, 201 L.Ed.2d 376
(2018) (citation and internal quotation marks
omitted). But "[t]here may be a special category of
forfeited errors that can be corrected regardless of
their effect on the outcome." Olano , 507 U.S. at
735, 113 S.Ct. 1770. The Majority declines to
address whether *384 an erroneous courtroom
closure fits this "special category" under the third
Olano prong. Majority Op. at 341 (noting that it
need not decide because it declines to exercise
discretion under the fourth prong). I disagree and
would hold that the specific structural error at
issue here fits the special category of errors that
must be corrected even without a particularized
showing of prejudice and thus satisfies Olano ’s
third prong.
The Supreme Court has made clear that structural
errors generally result in the reversal of a
conviction because they "are so intrinsically
harmful as to require automatic reversal (i.e.,
‘affect substantial rights’) without regard to their
effect on the outcome." Neder , 527 U.S. at 7, 119
S.Ct. 1827. Requiring defendants to make a
specific showing of prejudice when claiming a
structural error on direct review would force them
to engage in a "speculative inquiry into what
might have occurred in an alternate universe."
United States v. Gonzalez-Lopez , 548 U.S. 140,
148–50, 126 S.Ct. 2557, 165 L.Ed.2d 409 (2006)
(describing why it is "unnecessary to conduct an
ineffectiveness or prejudice inquiry" to establish a
violation to the "right to counsel of choice").
The District Court's closure of the courtroom
during voir dire is the prototypical constitutional
error that is impossible to measure. "Jury selection
is the primary means by which a court may
enforce a defendant's right to be tried by a jury

47

48a

United States v. Williams

free from ethnic, racial, or political prejudice ..., or
predisposition about the defendant's culpability."
Gomez v. United States , 490 U.S. 858, 873, 109
S.Ct. 2237, 104 L.Ed.2d 923 (1989). Public jury
selection proceedings impact the way in which
potential jurors respond to questions about their
past experiences and the types of questions
attorneys ask them. See Negrón-Sostre , 790 F.3d
at 305–06.
The difficulty in determining the level of prejudice
is precisely why structural errors are presumed to
affect defendants’ substantial rights. See Neder ,
527 U.S. at 7, 119 S.Ct. 1827. Contrary to the
Majority, I do not view the conclusion that the
District Court's courtroom closure affected
Appellants’ substantial rights as a "doctrinal leap."
See Majority Op. at 341. It would be illogical to
classify an error as structural because it affects
substantial rights but then conclude that it did not
affect defendants’ substantial rights for purposes
of Olano ’s third prong. Given the difficulty of
measuring prejudice arising from a public trial
violation and the importance of jury selection in
protecting criminal defendants, this Court should
presume prejudice and hold that Appellants have
satisfied the substantial rights prong.

B.
The District Court's order also undermines the
fairness, integrity, and public reputation of the trial
proceedings, thus satisfying Olano ’s fourth prong.
As explained above, open voir dire is key to
ensure that unprejudiced jurors are ultimately
selected to serve on juries. It also serves as a
check on judicial abuse against defendants caught
up in the criminal justice system. See United
States v. Lnu , 575 F.3d 298, 305 (3d Cir. 2009)
(stating that the public trial right "has always been
recognized as a safeguard against any attempt to
employ our courts as instruments of persecution")
(citation and internal quotation marks omitted).
Even in cases where there are no further
constitutional violations, open jury selection
maintains the public's confidence in the system by

974 F.3d 320 (3d Cir. 2020)
385

enhancing "the appearance of fairness."2

*385

Press-Enterprise , 464 U.S. at 508, 104 S.Ct. 819 ;
see also Waller , 467 U.S. at 46, 104 S.Ct. 2210
(stating that public trials ensure that the "judge
and prosecutor carry out their duties responsibly"
and "discourages perjury").3
2 These fairness concerns are particularly

relevant in light of the District Court's
handling of the Batson challenge in
chambers. Although I agree with the
Majority

that

the

resolution

of

the

challenge in camera was harmless, the
District Court's conduct is concerning
because it represents another instance in
which the Court limited access to jury
selection proceedings.
3 Concerns related to public confidence in

the proceedings are especially relevant here
given the local media coverage into the
case. See, e.g. , Keith Schweigert, York
member of Southside gang to serve 21
years on drug, racketeering charges , Fox
43 (December 21, 2018, 11:24 AM),
https://fox43.com/2018/12/21/yorkmember-ofsouthside-gang-to-serve-21years-on-drug-racketeeringcharges/;
Christopher Dornblaser, Life in prison for
York City Southside gang leader, York
Dispatch (October 3, 2017, 8:03 PM),
https://www.yorkdispatch.com/story/news/
2017/10/03/life-prison-york-city-southsidegang-leader/729170001/.
--------

The pivotal role that public proceedings play in
our judicial system is precisely why reviewing
courts find it particularly problematic when trial
judges themselves limit access to courtrooms. See
Weaver , 137 S. Ct. at 1913 (emphasizing that the
"closure decision ... was made by court officers
rather than the judge"). It is also why trial judges
are responsible for considering alternatives to
closure even if none are raised by the parties.
Presley , 558 U.S. at 214–15, 130 S.Ct. 721
(noting that trial courts must consider alternatives
given jury selection's importance "to the
48

49a

United States v. Williams

adversaries [and] to the criminal justice system")
(citation and internal quotation marks omitted). As
the reviewing court, it is imperative that we
correct the District Court's structural error because
it undermines the integrity and public reputation
of criminal proceedings that resulted in
Appellants’ convictions.
Instead, the Majority conducts a cost-benefit
analysis to justify leaving the public trial violation
uncorrected. Majority Op. at 347 (declining
remedial action because "the remedy is to be
assessed relative to the costs of the error"). This
approach is foreign and detrimental to our
structural error jurisprudence.
The Majority first minimizes the impact of the
error by pointing out that there is no evidence
anyone sought to access to the courtroom, that
there is no indication of wrongdoing by the
District Court or the Government, and that
transcripts of voir dire were made available.
Majority Op. at 345–47. The availability of
transcripts does little to mitigate the error because
"no transcript can recapture the atmosphere of the
voir dire , which may persist throughout the trial."
Gomez , 490 U.S. at 874–75, 109 S.Ct. 2237 ; see
also United States v. Antar , 38 F.3d 1348, 1360
n.13 (3d Cir. 1994) (explaining that "the
translation of a live proceeding to a cold
transcript" misses "some information, concerning
demeanor, non-verbal responses, and the like").
The other two factors the Majority mentions miss
the point of structural errors like public trial
violations. Much of the Majority's analysis relies
on cases that consider errors reviewed for
harmlessness. See Majority Op. at 344–45. At one
point, the Majority even posits that "apart from
cases of actual innocence, an altered outcome does
not in itself necessitate correction of the error."
Majority Op. at 345. The Majority overlooks the
critical fact that we do not review criminal trials
with a structural error for harmlessness because
such trials "cannot reliably serve its function as a
vehicle for determination of guilt or innocence,

974 F.3d 320 (3d Cir. 2020)

386

and no criminal punishment may be regarded as
fundamentally fair." Arizona v. Fulminante , 499
U.S. 279, 310, 111 S.Ct. 1246, 113 L.Ed.2d 302
(1991) (citation and internal quotation marks
omitted). Because public trial violations corrupt
the very mechanism used to determine guilt or
*386 innocence, we cannot measure the true costs
of leaving the District Court's error uncorrected.
The Majority next focuses on the high costs of
remedial action to correct the error. Correcting the
public trial violation would require reversal of
Appellants’ convictions, which resulted from twomonth long proceedings completed five years ago,
and remand for a new trial. The costs to remedy
the District Court's error are indeed considerable. I
disagree, however, with the central role the
Majority affords these costs in its plain error
analysis. The District Court committed a grave
constitutional violation by simultaneously
violating twelve defendants’ right to a public trial
for the entirety of jury selection. The nature of the
error, not the cost of correcting it, must be the
lodestar of our consideration of a structural error
on plain-error review. The District Court
"undermine[d] the structural integrity of the
criminal tribunal itself" in a way that "is not
amenable to harmless-error review"—and the
Majority allows this to stand. Vasquez v. Hillery ,
474 U.S. 254, 263–64, 106 S.Ct. 617, 88 L.Ed.2d
598 (1986). It is perverse to weigh the costs of
judicial
efficiency
against
Appellants’
constitutional rights when the District Court
undeniably committed structural error.
For the reasons stated above, I respectfully
dissent. A balancing test or a cost-benefit analysis
is an improper and unjust method for determining
whether to protect certain fundamental
constitutional rights. The public trial right is one
of these fundamental rights. It has deep roots in
our Nation's history and is essential to the
functioning of our criminal justice system. I would
therefore reverse Appellants’ convictions and
remand for a new trial.

49

50a

United States v. Williams

974 F.3d 320 (3d Cir. 2020)

50

51a

No. 21-_______________
In the
United States Supreme Court
Anthony Sistrunk,

Petitioner,

v.
United States of America,
Respondent,
APPENDIX B
Order of the United States Court of Appeals
For the Third Circuit Sur Petition for Rehearing
With Suggestion for Rehearing En Banc
(November 10, 2020)
Daniel M. Myshin, Esq.
Counsel of Record
P.O. Box 33
Hummelstown, PA 17036
717-541-5451
dan_myshin@myshinlaw.com

52a

Case: 18-2468

Document: 131

Page: 1

Date Filed: 11/10/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______
No. 18-2468
______
UNITED STATES OF AMERICA
v.
ANTHONY SISTRUNK
a/k/a "KANYE",
Appellant
______
(M.D. Pa. No. 1-14-cr-00070-009)
______
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, ROTH and FISHER1, Circuit Judges.
______
SUR PETITION FOR REHEARING
WITH SUGGESTION FOR REHEARING EN BANC
______
The petition for rehearing filed by Appellant, Anthony Sistrunk in the aboveentitled case having been submitted to the judges who participated in the decision of this
Court and to all the other available circuit judges of the circuit in regular active service,
and no judge who concurred in the decision having asked for rehearing, and a majority of
the judges of the circuit in regular service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is denied.
BY THE COURT:
s/ D. Michael Fisher
Circuit Judge
Dated: November 10, 2020

1

Judges Roth and Fisher’s votes are limited to panel rehearing only.

53a

Case: 18-2468

Document: 131

Page: 2

Date Filed: 11/10/2020

Appeal No. 18-2468
United States v. Anthony Sistrunk
Page 2

cc:

G. Scott Gardner, Esq.
Peter Goldberger, Esq.
Jeremy B. Gordon, Esq.
Tieffa N. Harper, Esq.
Richard F. Maffett, Jr., Esq.
Terrence J. McGowan, Esq.
Daniel M. Myshin, Esq.
John F. Yaninek, Esq.
Andrew J. Shubin, Esq.
Michael A. Consiglio, Esq.
Jonathan W. Crisp, Esq.

54a

No. 21-_______________
In the
United States Supreme Court
Anthony Sistrunk,

Petitioner,

v.
United States of America,
Respondent,
APPENDIX C
Judgment of Conviction and Sentence
In the United States District Court
For the Middle District of Pennsylvania
(June 29, 2018)
Daniel M. Myshin, Esq.
Counsel of Record
P.O. Box 33
Hummelstown, PA 17036
717-541-5451
dan_myshin@myshinlaw.com

55a

Case 1:14-cr-00070-YK-MCC Document 1428 Filed 06/29/18 Page 1 of 9
AO 245B (Rev. )

Judgment in a Criminal Case
Sheet 1

UNITED STATES DISTRICT COURT
Middle District
of Pennsylvania
__________
District
of __________
)
UNITED STATES OF AMERICA
JUDGMENT IN A CRIMINAL CASE
)
v.
)
)
ANTHONY SISTRUNK
Case Number: 1:14-CR-070-09
)
)
USM Number: 72326-067
)
Daniel M. Myshin, Esquire
)
Defendant’s
Attorney
)

THE DEFENDANT:

G pleaded guilty to count(s)
G pleaded nolo contendere to count(s)
which was accepted by the court.

✔ was found guilty on count(s)
G

one (1), two (2) and three (3)

after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section

18 U.S.C. § 1962(d)

21 U.S.C. § 846

Nature of Offense

Offense Ended

Count

Racketeering Conspiracy

9/17/2014

-1-

Consp to Distribute 5 Kilos and More of Cocaine, 280 Grams

9/30/2014

-2-

and More of Crack Cocaine, Heroin, and Marijuana
8

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

of this judgment. The sentence is imposed pursuant to

G The defendant has been found not guilty on count(s)
G Count(s)

G is

G are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

6/28/2018
Date of Imposition of Judgment

s/Yvette Kane
Signature of Judge

Yvette Kane, United States District Judge
Name and Title of Judge

6/28/2017
Date

56a

Case 1:14-cr-00070-YK-MCC Document 1428 Filed 06/29/18 Page 2 of 9
AO 245B (Rev. 

Judgment in a Criminal Case
Sheet 1A
Judgment—Page

2

of

8

DEFENDANT: ANTHONY SISTRUNK
CASE NUMBER: 1:14-CR-070-09

ADDITIONAL COUNTS OF CONVICTION
Title & Section

Nature of Offense

21 U.S.C. § 841(a)(1)

Distribution of 5 Kilograms and More of Cocaine,

Offense Ended
9/30/2014

Count
-3-

280 Grams and More of Crack Cocaine, Heroin
and Marijuana

57a

Case 1:14-cr-00070-YK-MCC Document 1428 Filed 06/29/18 Page 3 of 9
AO 245B (Rev. ) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page

3

of

8

DEFENDANT: ANTHONY SISTRUNK
CASE NUMBER: 1:14-CR-070-09

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:

Three hundred sixty (360) months on counts 1, 2, and 3, to be served concurrently. The term of 360 months includes a
36-month departure on the York County fleeing and eluding conviction. Said sentence shall be served consecutive to the
anticipated state parole revocation at York County Docket No: 2923-2009.
✔ The court makes the following recommendations to the Bureau of Prisons:
G
Court recommends to the BOP that the defendant be placed in a facility located in Pennsylvania for service of sentence.

✔ The defendant is remanded to the custody of the United States Marshal.
G

G The defendant shall surrender to the United States Marshal for this district:
G at

G a.m.

G p.m.

on

.

G as notified by the United States Marshal.
G The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
G before 2 p.m. on

.

G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
aW

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

58a

Case 1:14-cr-00070-YK-MCC Document 1428 Filed 06/29/18 Page 4 of 9
AO 245B (Rev. 

Judgment in a Criminal Case
Sheet 3 — Supervised Release
Judgment—Page

4

of

8

DEFENDANT: ANTHONY SISTRUNK
CASE NUMBER: 1:14-CR-070-09

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of :

five (5) years, on each count to be served concurrently.

MANDATORY CONDITIONS
1.
.
.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
G The above drug testing condition is suspended, based on the court's determination that you
SRVHDORZULVNRIIXWXUHVXEVWDQFHDEXVH FKHFNLIDSSOLFDEOH



G <RXPXVWPDNHUHVWLWXWLRQLQDFFRUGDQFHZLWK86&DQG$RUDQ\RWKHUVWDWXWHDXWKRUL]LQJDVHQWHQFHRI

.

✔ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
G
G You must comply with the requirements of the Sex Offender Registration and Notification Act 86&HWVHT as

.

.

UHVWLWXWLRQ FKHFNLIDSSOLFDEOH

G

directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in WKHORFDWLRQwhHUH you
reside, work,are a student, or were convicted of a qualifying offense. (check if applicable)
You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

59a

Case 1:14-cr-00070-YK-MCC Document 1428 Filed 06/29/18 Page 5 of 9
AO 245B (Rev. ) Judgment in a Criminal Case
Sheet 3A — Supervised Release
Judgment—Page

5

of

8

DEFENDANT: ANTHONY SISTRUNK
CASE NUMBER: 1:14-CR-070-09

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.

















You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours ofbecoming
aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer mayrequire
you to notify the person about the risk and you must comply with that instruction. The probation officer may contact theperson and
confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.
<RXPXVWQRWLI\WKHFRXUWRIDQ\PDWHULDOFKDQJHLQ\RXUHFRQRPLFFLUFXPVWDQFHVWKDWPLJKWDIIHFW\RXUDELOLW\WRSD\UHVWLWXWLRQ
ILQHVRUVSHFLDODVVHVVPHQWV

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

60a

Case 1:14-cr-00070-YK-MCC Document 1428 Filed 06/29/18 Page 6 of 9
AO 245B (Rev. ) Judgment in a Criminal Case
Sheet 3B — Supervised Release
Judgment—Page

6

of

8

DEFENDANT: ANTHONY SISTRUNK
CASE NUMBER: 1:14-CR-070-09

ADDITIONAL SUPERVISED RELEASE TERMS
1. The defendant shall submit to one drug test within 15 days of commencing supervision and at least two periodic drug
tests thereafter for the use of a controlled substance;
2. The defendant shall cooperate in the collection of a DNA sample as directed by the probation officer unless a sample
was collected during imprisonment;
3. The defendant shall pay the financial obligation imposed by this judgment in minimum monthly installments of $50;
4. The defendant shall not incur new credit charges or open additional lines of credit without the approval of the probation
officer unless the defendant is in compliance with the installment schedule for payment of restitution, fines, or special
assessment;
5. The defendant shall apply all monies received from income tax refunds, lottery winnings, judgments, and/or other
anticipated or unexpected financial gains to the outstanding court-ordered financial obligation; and
6. The defendant shall submit his or her person, property, house, residence, vehicle, papers, computers (as defined in 18
U.S.C. § 1030(e)(1)), other electronic communications or data storage devices or media, or office, to a search conducted
by the United States probation officer. Failure to submit to a search may be grounds for revocation of release. The
defendant shall warn any other occupants that the premises may be subject to searches pursuant to this condition.

61a

Case 1:14-cr-00070-YK-MCC Document 1428 Filed 06/29/18 Page 7 of 9
AO 245B (Rev. )

Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties
Judgment — Page

7

of

8

DEFENDANT: ANTHONY SISTRUNK
CASE NUMBER: 1:14-CR-070-09

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
JVTA Assessment*

Assessment
TOTALS

$ 300.00

Fine

$

Restitution

$ 6,500.00

$

G The determination of restitution is deferred until

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

after such determination.

G The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Total Loss**

Name of Payee

Restitution Ordered

PA Victims Compensation Assist. Program

TOTALS

$6,500.00

0.00

$

Priority or Percentage

$

6,500.00

G

Restitution amount ordered pursuant to plea agreement $

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

✔
G

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

✔ the interest requirement is waived for the
G

G the interest requirement for the

G fine

G fine
G

✔ restitution.
G

restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.

62a

Case 1:14-cr-00070-YK-MCC Document 1428 Filed 06/29/18 Page 8 of 9

AO 245B (Rev. ) Judgment in a Criminal Case
Sheet 5A — Criminal Monetary Penalties

Judgment—Page

of

8

DEFENDANT: ANTHONY SISTRUNK
CASE NUMBER: 1:14-CR-070-09

ADDITIONAL TERMS FOR CRIMINAL MONETARY PENALTIES
defendant shall pay costs of prosecution of $32,868.76 payable to the Clerk, U.S. District Court, for disbursement to the
City of York of $13,948.76, and to the U.S. Marshals Service of $18,920. Costs of prosecution are to be paid jointly and
severally with costs to be imposed or which have been imposed in the cases of: Marc Hernandez (01); Douglas Kelly (02);
Roscoe Villega (03); Rolando Cruz, Jr. (04); Tyree Eatmon (06); Maurice Atkinson (08); Eugene Rice (11); Angel Schueg
(12); Jalik Frederick (14); Brandon Orr (15); and Jabree Williams (17). Payment of interest is waived. No further payment
shall be required after the sum of the amounts actually paid by all defendants have fully covered the compensable losses.

63a

Case 1:14-cr-00070-YK-MCC Document 1428 Filed 06/29/18 Page 9 of 9

$2% 5HY -XGJPHQWLQD&ULPLQDO&DVH
Sheet 6 — Schedule of Payments

Judgment — Page

8

of

8

DEFENDANT: ANTHONY SISTRUNK
CASE NUMBER: 1:14-CR-070-09

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

✔ Lump sum payment of $
G

G
✔
G

not later than
in accordance with

6,800.00

G

C,

G

due immediately, balance due

D,

G

, or
E, or

B

G Payment to begin immediately (may be combined with

C

G Payment in equal

D

G Payment in equal

G F below; or
G C,

G D, or

G F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

G Payment during the term of supervised release will commence within

F

✔ Special instructions regarding the payment of criminal monetary penalties:
G

(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

During the term of imprisonment, the financial obligation is payable every three months in an amount, after a
telephone allowance, equal to 50 percent of the funds deposited into the defendant’s inmate trust fund account.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

✔
Joint and Several
G

Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

1:14-cr-070 - Mark Hernandez (1); Douglas Kelly (02); Roscoe Villega (03); Rolando Cruz, Jr. (04); James Abney (05);
Tyree Eatmon (06); Jahkeem Abney (07); Maurice Atkinson (08); Cordaress Rogers (10); Angel Schueg (12); Marquis
Williams (13); Malik Sturdivant (16); Ronald Payton (18); Jerrod Brown (19), Quintez Hall (20), and Richard Nolden
(21)
✔ The defendant shall pay the cost of prosecution.
G

G The defendant shall pay the following court cost(s):
G The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

64a

No. 21-_______________
In the
United States Supreme Court
Anthony Sistrunk,

Petitioner,

v.
United States of America,
Respondent,
APPENDIX D
Order of the District Court for the Middle District of Pennsylvania
(September 18, 2015)
Daniel M. Myshin, Esq.
Counsel of Record
P.O. Box 33
Hummelstown, PA 17036
717-541-5451
dan_myshin@myshinlaw.com

65a

Case 1:14-cr-00070-YK Document 737 Filed 09/18/15 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA
v.
MARC HERNANDEZ, et al.,
Defendants

:
:
:
:
:
:

No. 1:14-cr-00070

(Judge Kane)

ORDER
AND NOW, on this 18th day of September 2015, IT IS HEREBY ORDERED THAT
due to courtroom capacity limitations, only (1) court personnel, (2) defendants, (3) trial counsel
and support staff, and (4) prospective jurors shall be allowed in the courtroom during jury
selection. No other individuals will be present except by express authorization of the Court.

S/ Yvette Kane
Yvette Kane, District Judge
United States District Court
Middle District of Pennsylvania

66a

No. 21-_______________
In the
United States Supreme Court
Anthony Sistrunk,

Petitioner,

v.
United States of America,
Respondent,
APPENDIX E
Order of the United States Court of Appeals
For the Third Circuit consolidating cases #17-2111
(Williams), #17-3191 (Cruz), #17-3373 (Hernandez), #17-3568
(Villega), #17-3711 (Rice), #17-3777 (Kelly), #18-1012 (Schueg),
#18-1324 (Atkinson), and #18-2468 (Petitioner) for disposition only
(July 3, 2018)
Daniel M. Myshin, Esq.
Counsel of Record
P.O. Box 33
Hummelstown, PA 17036
717-541-5451
dan_myshin@myshinlaw.com

67a

Case: 17-2111

Document: 003112973019

Page: 1

Date Filed: 07/03/2018

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

Nos. 17-2111, 17-3191, 17-3373, 17-3586, 17-3711,
17-3777, 18-1012, 18-1324 & 18-2468

United States v. Williams
United States v. Cruz
United States v. Hernandez
United States v. Villega
United States v. Rice
United States v. Kelly
United States v. Schueg
United States v. Atkinson
United States v. Sistrunk
(M.D. Pa. Nos. 1-14-cr-00070-017; 1-14-cr-00070-004;
1-14-cr-00070-001; 1-14-cr-00070-003; 1-14-cr-00070-011;
1-14-cr-00070-002; 1-14-cr-00070-012; 1-14-cr-00070-008; 1-14-cr-00070-009)

ORDER

The above-captioned appeals are hereby consolidated for purposes of disposition
only.
In No. 17-2111, Appellant’s and Appellee’s briefs have already been received.
The parties in the remaining cases are encouraged to adopt portions of those briefs by
reference to avoid repetitive briefs. See Fed. R. App. P. 28(i). If the government wishes
to file a consolidated brief in the remaining cases, it should so notify the Clerk’s office in
writing of such an election prior to the Government’s next briefing deadline.
The parties are hereby directed to electronically file documents on the Court’s
docket as follows:
Appellants: All case opening forms, motions, and briefs must be filed only in the
appeal number assigned to the filer’s notice of appeal. If a document is being filed
jointly by multiple appellants, the document must be filed only in the appeal numbers
assigned to the filing appellants.

68a

Case: 17-2111

Document: 003112973019

Page: 2

Date Filed: 07/03/2018

Government: All case opening forms must be filed in all appeals in which the
Government intends to participate. All motions should be filed only in those cases for
which the relief is being requested. All responsive briefs should be filed only in the
appeal to which the Government is responding. If the Government is filing a
consolidated response brief, the brief must be filed in all appeals to which the
Government is responding.
The parties are advised that case opening forms for later filed appeals must only be
filed in the new appeals and not re-filed in earlier appeals in which the forms were
previously filed.
The parties are further advised that failure to file documents in the appropriate
case may result in the issuance of a noncompliance order. If any party is unsure how to
file a particular document, he or she should call the case manager prior to filing the
document.

For the Court,
s/ Patricia S. Dodszuweit
Clerk

Dated: July 3, 2018
cc:
Richard F. Maffett, Jr., Esq.
Michael A. Consiglio, Esq.
Jonathan W. Crisp, Esq.
James T. Clancy, Esq.
William S. Houser, Esq.
Joseph J. Terz, Esq.
Erin M. Zimmerer, Esq.
Jeremy B. Gordon, Esq.
Peter Goldberger, Esq.
G. Scott Gardner, Esq.
Terry J. McGowan, Esq.
John F. Yaninek, Esq.
Daniel M. Myshin, Esq.

69a

No. 21-_______________
In the
United States Supreme Court
Anthony Sistrunk,

Petitioner,

v.
United States of America,
Respondent,
APPENDIX F
Order of the United States Court of Appeals
For the Third Circuit denying petition for rehearing
with suggestion for rehearing En Banc
United States v. Eugene Rice, #17-3711
(November 24, 2020)
Daniel M. Myshin, Esq.
Counsel of Record
P.O. Box 33
Hummelstown, PA 17036
717-541-5451
dan_myshin@myshinlaw.com

70a

Case: 17-3711

Document: 130

Page: 1

Date Filed: 11/24/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______
No. 17-3711
______
UNITED STATES OF AMERICA
v.
EUGENE RICE,
also known as "B MOR"
EUGENE RICE, Appellant
______
(D.C. No. 1-14-cr-00070-011)
______
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, ROTH and FISHER1, Circuit Judges.
______
SUR PETITION FOR REHEARING
WITH SUGGESTION FOR REHEARING EN BANC
______
The petition for rehearing filed by Appellant, Eugene Rice in the above-entitled
case having been submitted to the judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit in regular active service, and no
judge who concurred in the decision having asked for rehearing, and a majority of the
judges of the circuit in regular service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is denied.

1

Judges Roth and Fisher’s votes are limited to panel rehearing only.

71a

Case: 17-3711

Document: 130

Page: 2

Date Filed: 11/24/2020

BY THE COURT:
s/ D. Michael Fisher
Circuit Judge
Dated: November 24, 2020
cc:
G. Scott Gardner, Esq
.Peter Goldberger, Esq.
Jeremy B. Gordon, Esq.
Tieffa N. Harper, Esq.
Richard F. Maffett, Jr., Esq.
Terrence J. McGowan, Esq.
Daniel M. Myshin, Esq.
John F. Yaninek, Esq.
Andrew J. Shubin, Esq.
Michael A. Consiglio, Esq.
Jonathan W. Crisp, Esq.

72a

No. 21-_______________
In the
United States Supreme Court
Anthony Sistrunk,

Petitioner,

v.
United States of America,
Respondent,
APPENDIX G
U.S. Const. Amend. VI
Daniel M. Myshin, Esq.
Counsel of Record
P.O. Box 33
Hummelstown, PA 17036
717-541-5451
dan_myshin@myshinlaw.com

73a

United States Constitution, amendment VI:
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the state and district wherein the crime
shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted by the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the assistance of
counsel for his defense. U.S. Const. Amend. VI.

74a

